<html>
<title> - APPLYING LESSONS LEARNED FROM HURRICANE KATRINA: HOW THE DEPARTMENT OF DEFENSE IS PREPARING FOR THE UPCOMING HURRICANE SEASON</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 109-128]
 
                     APPLYING LESSONS LEARNED FROM 
                       HURRICANE KATRINA: HOW THE 
                        DEPARTMENT OF DEFENSE IS 
                       PREPARING FOR THE UPCOMING 
                            HURRICANE SEASON 

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              MAY 25, 2006

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     U.S. GOVERNMENT PRINTING OFFICE

33-595 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
  
























    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    JIM SAXTON, New Jersey, Chairman
ROBIN HAYES, North Carolina          MARTY MEEHAN, Massachusetts
W. TODD AKIN, Missouri               ADAM SMITH, Washington
JOE WILSON, South Carolina           MIKE McINTYRE, North Carolina
JOHN KLINE, Minnesota                ELLEN O. TAUSCHER, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
GEOFF DAVIS, Kentucky                JAMES R. LANGEVIN, Rhode Island
JOEL HEFLEY, Colorado                RICK LARSEN, Washington
MAC THORNBERRY, Texas                JIM COOPER, Tennessee
JIM GIBBONS, Nevada                  JIM MARSHALL, Georgia
JEFF MILLER, Florida                 CYNTHIA McKINNEY, Georgia
FRANK A. LoBIONDO, New Jersey
                         Roger Zakheim, Counsel
                 Bill Natter, Professional Staff Member
                    Brian Anderson, Staff Assistant






















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, May 25, 2006, Applying Lessons Learned from Hurricane 
  Katrina: How the Department of Defense is Preparing for the 
  Upcoming Hurricane Season......................................     1

Appendix:

Thursday, May 25, 2006...........................................    41
                              ----------                              

                         THURSDAY, MAY 25, 2006
APPLYING LESSONS LEARNED FROM HURRICANE KATRINA: HOW THE DEPARTMENT OF 
         DEFENSE IS PREPARING FOR THE UPCOMING HURRICANE SEASON
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Saxton, Jim, a Representative from New Jersey, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Smith, Hon. Adam, a Representative from Washington, Terrorism, 
  Unconventional Threats and Capabilities Subcommittee...........     2

                               WITNESSES

Blum, Lt. Gen. H. Steven, Chief, National Guard Bureau, U.S. Army     5
Bowen, Maj. Gen. C. Mark, the Adjutant General of Alabama........    12
Burnett, Maj. Gen. Douglas, the Adjutant General of Florida......     9
McHale, Hon. Paul, Assistant Secretary of Defense for Homeland 
  Defense........................................................     3
Rowe, Maj. Gen. Richard J., Jr., Director of Operations, United 
  States Northern Command, U.S. Army.............................     7

                                APPENDIX

Prepared Statements:

    Blum, Lt. Gen. H. Steven.....................................    58
    Bowen, Maj. Gen. C. Mark.....................................    92
    Burnett, Maj. Gen. Douglas...................................    76
    Landreneau, Maj. Gen. Bennett C., Adjutant General of 
      Louisiana..................................................    97
    McHale, Hon. Paul............................................    45
    Pickup, Sharon, Director Defense Capabilities and Management, 
      U.S. Government Accountability Office......................   108
    Rowe, Maj. Gen. Richard J., Jr...............................    69

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
APPLYING LESSONS LEARNED FROM HURRICANE KATRINA: HOW THE DEPARTMENT OF 
         DEFENSE IS PREPARING FOR THE UPCOMING HURRICANE SEASON

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                            Washington, DC, Thursday, May 25, 2006.
    The subcommittee met, pursuant to call, at 10 a.m. in room 
2212, Rayburn House Office Building, Hon. Jim Saxton (chairman 
of the subcommittee) presiding.

OPENING STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW 
    JERSEY, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Saxton. Good morning.
    The Subcommittee on Terrorism, Unconventional Threats and 
Capabilities meets this morning to discuss how the Department 
of Defense is preparing for the upcoming hurricane season. As 
Hurricane Katrina demonstrated last year, when there is a 
catastrophic disaster, the military will be called upon to aid 
in the response.
    During Katrina, the military, and the National Guard in 
particular, shouldered this responsibility and completed its 
mission with valor.
    There is always room for improvement, however. This hearing 
will investigate how the Department of Defense has incorporated 
lessons learned from Hurricane Katrina as it plans and prepares 
for the upcoming hurricane season. In the weeks and months 
following Hurricane Katrina, the Federal response to the 
disaster was scrutinized and critiqued.
    The Select Bipartisan Committee to Investigate the 
Preparation For the Response to Hurricane Katrina, the 
Government Accountability Office and the White House have all 
issued reports reviewing the Federal response to the hurricane, 
and the military response in particular.
    I look forward to hearing from our witnesses on how they 
are responding to the findings and recommendations of these 
reports. It is important to note that the military mission in 
responding to domestic catastrophes is primarily a support 
mission. Other agencies are in the lead.
    As a result the military ability to complete its mission 
rests on the level of coordination between the Department of 
Defense, the National Guard, Northern Command (NORTHCOM), the 
Department of Homeland Security, and State and local entities 
as well. In many ways, mission success will be determined by 
the level and quality of interagency coordination.
    I encourage the witnesses on both panels to address this 
issue during the testimony.
    Unfortunately, the planning, training and exercising for 
hurricane response operations are not a theoretical matter. 
Just this week, the National Oceanic and Atmospheric 
Administration predicted for this year 13 to 16 named storms 
with 8 to 10 becoming hurricanes of which 6 could become major 
hurricanes, Category 3 strength or higher.
    While I hope this hurricane season passes without any 
Category 3 hurricanes or higher, our military in coordination 
with Federal, State and local entities must be prepared for the 
worst.
    It is also important to keep in mind that military 
preparedness to deal with catastrophic events is important for 
reasons beyond hurricanes. While Hurricane Katrina demonstrated 
the great challenges our leaders face when implementing an 
emergency response plan, we have to remember that in the case 
of Katrina we had three days warning. In the case of a 
terrorist attack, we will have not have the luxury of any 
warning.
    The military's mission to provide support for civil 
authorities applies to manmade disasters as well as natural 
disasters. As chairman of this subcommittee, I am constantly 
reminded that al Qaeda and its affiliates actively seek to 
carry out a catastrophic event on our soil. This threat is 
another reason where why the military capabilities to respond 
to catastrophes is a matter of great importance. Hurricane 
Katrina demonstrated the criticality of getting right our 
response to disasters.
    To me, the importance of this matter is simple. The more we 
perfect our response capability, the more lives will be saved.
    With us this morning are the Honorable Paul McHale, a great 
friend, and we are glad to see him back again for the second 
day in a row, Assistant Secretary of Defense for Homeland 
Security.
    Lieutenant General Steve Blum, also with us for the second 
day in a row, Chief of the National Guard Bureau, and Major 
General Richard Rowe, U.S. NORTHCOM. Thank you for being here 
again today, General.
    Major General C. Mark Bowen, the Adjutant General of the 
State of Alabama and Major General Douglas Burnett, the 
Adjutant General for the State of Florida.
    We welcome you and look forward to your testimony.
    After consultation with the minority, I now ask unanimous 
consent for Mr. Taylor to sit as part of this panel. Welcome, 
my friend.
    Before we begin I want to recognize Adam Smith for any 
remarks he may have as today's ranking member.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Thank you, Mr. Chairman, I appreciate that. 
Mostly I just want to agree with everything you said. I think 
you outlined it very well. And the thing that I am most 
interested in is the coordination aspect of it. We obviously 
haven't had an event like this in the Pacific Northwest, but I 
have been in many, many meetings with the energy management 
folks and all the different layers, city county, Federal, and I 
think the big issue everybody is interested in is how do we 
coordinate when an event like this happens, how did we very, 
very quickly figure out who is in charge and what the hierarchy 
is, because I think there are a great many experiences that 
time is lost, so sort of looking around saying, well, we have 
all got a role to play but who is organizing it? And certainly, 
I think our experience with the hurricanes in the South was 
that the Department of Defense (DOD), once they got on the 
scene, did a better job than anybody else.
    So I think you probably have a lot to offer in terms of 
that coordination. I am curious to hear about that.
    With that, I yield any additional time I have to Mr. 
Taylor, who is joining us, who I know has very specific 
concerns in this area, if you had anything to say.
    Mr. Taylor. Thank you.
    The Chairman. Thank you very much. With that, we will begin 
with Secretary McHale. We look forward to your testimony, Mr. 
Secretary.

 STATEMENT OF HON. PAUL MCHALE, ASSISTANT SECRETARY OF DEFENSE 
                      FOR HOMELAND DEFENSE

    Secretary McHale. Good morning, Chairman Saxton, 
Congressman Smith, distinguished members of the subcommittee. 
Thank you for inviting my colleagues and me to address the 
progress we have made in preparing for the 2006 hurricane 
season.
    Mr. Chairman, I have submitted my formal statement for the 
record and in the interests of time and to maximize the 
opportunity for questions, I will give you, if I may, an 
abbreviated summary of that formal statement.
    Mr. Saxton. Without objection, thank you.
    Secretary McHale. Hurricane Katrina, as noted, Mr. 
Chairman, was one of the worst natural disasters in U.S. 
history in terms of persons displaced, businesses disrupted, 
commerce effected and a projected aggregate economic loss.
    In response to the massive devastation caused by the storm, 
the Department of Defense's deployment of military resources in 
support of civil authorities after Hurricane Katrina exceeded 
in speed and size any other domestic disaster relief mission in 
the history of the United States.
    As President Bush said on April 27, 2006, in New Orleans, 
one of the things we are working on is to make sure we have 
learned the lessons from Katrina. We have learned lessons at 
the Federal level, the State level and the local level, and now 
we are working closely together in preparation for the upcoming 
hurricane season, end of quote, echoing in many ways 
Representative Smith's comments, that coordination is the key 
to an effective response during the 2006 hurricane season.
    Mindful of the lessons learned during Hurricane Katrina, 
the Department of Defense has taken deliberate actions to 
prepare for the 2006 hurricane season.
    By June first, 2006, just a few days from now, the 
Department of Defense will have assigned a defense coordinating 
officer, a DCO, to each of the 10 Federal Emergency Management 
Agency (FEMA) regional offices. DOD is giving priority to 
hurricane prone regions. Region IV, that is Alabama, Florida, 
Georgia, Kentucky, Mississippi, North Carolina, South Carolina, 
and Tennessee, and Region VI, Arkansas, Louisiana, New Mexico, 
Oklahoma, and Texas.
    Both of these FEMA regions will have a fully staffed DCO 
and a five-member defense coordinating element complement by 
June first, 2006. The DCO and Defense Coordinating Element 
(DCE) will have the capability to deploy in support of the 
interagency joint field office.
    Representative Smith, again, that is where the coordination 
that you talked about takes place and in the questioning we 
would welcome the opportunity to talk about the new paradigm in 
place to ensure that at the joint field office, all of the 
participating response elements, to include our Department, 
have been fully integrated in that combined effort.
    In coordination with the Department of Homeland Security, 
FEMA and Department of Transportation, DOD has developed what 
we call 18 prescripted requests for assistance to expedite the 
provision of DOD support to civil authorities. These 18 
prescripted, basically boilerplate, RFAs, requests for 
assistance, address DOD support for transportation to include 
helicopters, fixed wing aircraft, communications, public works 
and engineering, damage assessment, mass care, resource 
support, to include installations, mobilization centers and 
ground field distribution, public health and medical services, 
to include helicopter Medevac and temporary medical facilities.
    In short, those prescripted RFAs drawn from the experience 
of Hurricane Katrina provide a template which when completed 
will automatically trigger the types of support that I have 
just described. We don't want to be writing these RFAs in the 
middle of a crisis when we can anticipate the mission 
requirement and have that draft largely complete before the 
crisis ever occurs.
    March 31st, 2006, FEMA and the Defense Logistics Agency 
(DLA) signed an interagency agreement stating that DLA will 
provide logistic support to FEMA. DLA has been working with 
FEMA to prepare and plan for logistical support during all 
phases of a response.
    FEMA has provided $70 million to DLA to procure, store, 
rotate and provide supplies, including meals ready to eat 
(MREs), commercial meal alternatives, health and comfort kits, 
tents, generators, fuels, medical supplies, construction items, 
and other equipment. DOD has been participating in weekly 
interagency meetings with the Department of Homeland Security, 
the Department of Transportation, the Department of Justice, 
the Department of Health and Human Services, and other 
departments and agencies to coordinate Federal planning and 
preparations for the 2006 hurricane season.
    Secretary of Defense is currently reviewing U.S. Northern 
Command's revised contingency plan 2501 for defense support to 
civil authorities.
    DOD has published a defense support to civil authorities 
standing execute order that authorizes the commanders of the 
United States NORTHCOM, United States Pacific Command 
(USPACOM), and the United States Southern Command (USSOUTHCOM) 
to prepare DOD assets in order to be ready to deploy in support 
of civil authorities in response to natural disasters. Some of 
the areas covered by the executive order would include senior 
officers for command, control and coordination, identification 
of DOD installations as staging areas, helicopters for search 
and rescue, support for the movement of special needs patients, 
communications teams, logistical specialists for the 
establishment of food, water, and medical supply distribution 
points.
    In April, 2006, the Department of Defense in coordination 
with the Department of Health and Human Services developed the 
DOD sections of the medical services concept plan again for the 
2006 hurricane season. In that regard potential DOD support 
would include surgical support augmentation, including general 
surgeons, anesthesiologists, operating room nurses, and 
surgical support personnel.
    DOD is supporting FEMA efforts to augment communications 
capabilities in the gulf coast region.
    Interoperability of communications proved to be one of the 
major challenges in the immediate aftermath of Hurricane 
Katrina. Accordingly, before the hurricane season this year DOD 
will participate in four FEMA communications exercises to 
validate interoperability among Federal, State and local 
emergency management officials.
    In addition, DOD in conjunction with FEMA has developed 
prescripted requests for assistance providing deployable 
communications options that can be called upon in the case of 
disaster.
    In conclusion, Mr. Chairman, the DOD response to Hurricane 
Katrina was the largest, fastest, civil support mission in the 
history of the United States. Nonetheless, as noted by the 
chairman, any military mission includes a serious after action 
review, and with an unflinching eye, we have been our own worst 
critics in terms of where we could have performed better last 
year. We have not only learned the lessons of Hurricane 
Katrina, we have acted upon them.
    Mr. Chairman, I look forward to your questions upon the 
conclusion of the opening statements by my colleagues.
    [The prepared statement of Secretary McHale can be found in 
the Appendix on page 45.]
    Mr. Saxton. Mr. Secretary, thank you very much for the very 
thorough statement. We appreciate it. And General Blum.

  STATEMENT OF LT. GEN. H. STEVEN BLUM, CHIEF, NATIONAL GUARD 
                       BUREAU, U.S. ARMY

    General Blum. Chairman Saxton and distinguished members of 
the committee, it is our honor and privilege to be here today 
to talk about the National Guard and the actions taken since 
Hurricanes Katrina, Rita and Wilma and get ready for the 
current season, which is upon us in the next few weeks.
    National Guard response has been described as the fastest 
and largest in the U.S. history, but that does not mean that we 
are ready for this hurricane season without improving what is 
already an outstanding record of accomplishment. For the last 
9-1/2 months we have been working feverishly with interagency, 
intergovernmental partners and our active duty partners to 
ensure that we have the capabilities and equipment that we did 
not have last year so that our response this year will be even 
more effective than what you saw last year.
    There are two things that are very key to this, and the 
Congress has been very, very instrumental in providing the 
resources to make those capabilities possible.
    I came before this committee about 8 months ago now and 
said that we needed $1.3 billion for communications equipment 
and for tactical vehicles, high water vehicles, so our mobility 
and communications and command and control could be better 
utilized, particularly in an area that would lose all its 
infrastructure, electrical grid and normal means of 
communication, and because of the generosity of the Congress we 
have spent $900 million on improving that capability for 
interoperable communications.
    Last year I had three deployable satellite communications 
systems that could stand up and operate independently, very few 
satellite phones, as Congressman Taylor knows. This year we had 
39 of those deployable forward positioned command and control 
satellite Field Emission Display (FED) systems that work off 
their own power, and beyond that we have now a system that will 
integrate not only the Department of Defense communications so 
that the National Guard can talk to the Army, Air Force, Navy 
and the Marine Corps that may be operating in the area, but we 
also have systems integrating equipment that allows us, more 
importantly, to talk to the civilian first responders on the 
800 megahertz system, the 900 megahertz system, Ultra High 
Frequency (UHF), Very High Frequency (VHF), land line radios, 
cell phones or any other known communication architecture that 
exists in the United States of America. We have mapped that 
architecture out. We know what exists normally in those States 
and the territories, and we have now programmed our 
communications to be able to interoperate with the civilian 
first responders as well as the military responders that would 
show up on the scene.
    Beyond that, any good team gets good with practice or 
better with practice. Nobody goes to the Super Bowl without a 
huddle and nobody goes there without scrimmaging and lots and 
lots of hard work. That is what we have been doing for the last 
9-1/2 months.
    Secretary McHale adequately described what we have done. 
There are two that I want to highlight. We have participated in 
all of those with U.S. Northern Command, the Department of 
Defense, Department of Homeland Security, FEMA itself, to make 
sure that we are seamless. When we are called to support the 
lead Federal agency, we don't want to be exchanging business 
cards on the day of the hurricane. We want to make sure that we 
know who the DCO the DCE and important players are down there, 
and that they know our capabilities and our limitations so that 
Northern command can lean forward to fill the gaps that the 
Guard may not be able to provide.
    For instance, we don't have any gray hull ships and we 
don't walk on water. So we are going to need the Navy and the 
Coast Guard and rely on them very heavily.
    Two important exercises were the ones that we conducted in 
April in South Carolina where we had the hurricane States 
represented from the Mid-Atlantic States. I am going today to 
New England because this hurricane, the hurricane season is 
upon us. Where it is going to hit, no one knows. Where it will 
make landfall, nobody knows.
    But we are being told this year we may see more activity on 
the Atlantic Coast, even as far as north as New England, and so 
I am going to New England to make sure that they are not 
complacent in New England in their preparation for the 
hurricanes and if they have the same vigor and interest and are 
prepared for hurricane season as the Southeast does and the 
gulf coast has put great attention to this.
    The exercises conducted in the southeastern part and the 
Middle Atlantic States and, in particular, we just conducted as 
recently as last week an extensive look at Louisiana, Alabama, 
Mississippi's hurricane preparation. We conducted this in Baton 
Rouge, Louisiana and we did this with the interagency partners, 
the intergovernmental partners and our DOD partners, 
specifically U.S. Northern Command, again every one of these 
all along the way.
    Last year, the visibility or seam that some of you may have 
perceived between the National Guard and the Department of 
Defense, that seam has been closed and you will not see a seam 
this year.
    As General Rowe knows, he has perfect visibility on what we 
are doing at all times and I have perfect visibility knowing 
what NORTHCOM is anticipating to come in and support the 
National Guard when it is required.
    I think this ARDENT SENTRY exercise that we just conducted 
was deliberately designed. It was a U.S. Northern Command 
exercise, was two weeks long in length. Rich? I will leave that 
to him to talk to. But I can tell you the big outcome of that 
is that the relationship between the National Guard and 
NORTHCOM is absolutely critical when you are talking about 
homeland defense, support of the homeland security, and I think 
that we have that relationship about as solid as it has ever 
been and we will make it more solid each and every day. It is 
that important.
    So by applying the lessons learned learn that you 
identified and the very tough scrutiny that everybody's 
response to hurricane Katrina Wilma and Rita really underwent, 
we have taken those lessons very seriously. We have taken those 
criticisms not personally, we have taken them professionally, 
and we are trying to shorten the list so that if we respond to 
hurricanes this year, that list will even be shorter the next 
time we are taken to task.
    I anxiously await your questions. Thank you.
    [The prepared statement of General Blum can be found in the 
Appendix on page 58.]
    Mr. Saxton. Thank you very much, General Blum. General 
Rowe.

   STATEMENT OF MAJ. GEN. RICHARD J. ROWE, JR., DIRECTOR OF 
     OPERATIONS, UNITED STATES NORTHERN COMMAND, U.S. ARMY

    General Rowe. Chairman Saxton, Congressman Smith, members 
of the subcommittee, it is an honor to be here to represent 
Admiral Keating today and the men and women of U.S. Northern 
Command.
    I am privileged to be part of a total force team, military, 
active and reserve, and to get to the extent of the 
partnership. During Secretary Chertoff's visits to the 
Governors recently, I have had the honor of sitting next to 
General Burnett and General Bowen in both Florida and Alabama 
as part of that teaming effort that we are trying to describe.
    Day to day, our headquarters is focused on deterring, 
preventing and defeating attacks against our homeland. We also 
stand ready to assist primary agencies in responding quickly to 
man-made and natural disasters when directed by the President 
or Secretary of Defense.
    We maintain situational awareness through our NORAD/
NORTHCOM command center, into which in the past year we have 
embedded a specific watch desk manned by highly qualified 
officers and noncommissioned officers that provides us direct 
insight into the National Guard deployments and the operations 
within the various States. We are networked with our 
subordinate commands and other government agencies and are 
prepared to bring all necessary capabilities to bear.
    In the past year, both the Department of the Army and the 
Department of the Air Force have dedicated headquarters as 
component commands for U.S. Northern Command and today, 5th 
Army in San Antonio and 1st Air Force at Tyndall Air Force Base 
in Florida are assigned those missions directly responsive to 
the U.S. Northern Command. That is different than last year.
    We support civilian authorities by providing specialized 
skills and assets to save lives, reduce suffering and restore 
infrastructure in the wake of catastrophic events. In 2005, we 
supported the Department of Homeland Security in responding to 
four hurricanes, including the unprecedented response to 
Hurricane Katrina.
    We have taken significant steps to improve our response 
capabilities based on the lessons learned and findings in the 
House, Senate and White House reports on Hurricane Katrina, as 
well as our own very detailed internal review.
    Secretary McHale highlighted many of those actions. I will 
just list the names: The joint staff standing execution order 
for defense support of civilian authorities to support the 
operational planning for the hurricane season; the integration 
of full time defense coordinating officers and staffs to each 
Federal Emergency Management Agency region; the development of 
and actual authorship of the language for the prescripted 
requests for assistance for the Federal Emergency Management 
Agency.
    Notable events include a hurricane preparation conference 
in which Admiral Keating had the distinct privilege of hosting 
10 adjutants general from the gulf coast region as well as the 
U.S. Northern Command senior leadership in February for fairly 
extensive discussions on what we learned from 2005 and how we 
wanted to approach 2006.
    Our information management mobile training teams have 
deployed across the country to demonstrate and instruct the use 
of collaborative tools, and information sharing processes to 
our Department of Defense and interagency partners.
    To improve our communication capabilities, U.S. Northern 
Command has purchased, in conjunction with the Department of 
Homeland Security, cellular network packages that include over 
100 cell phones, 40 laptop computers, a satellite terminal and 
radio bridging. We also procured 300 satellite phones to assist 
in distribution for first responders in a disaster when 
directed.
    In addition, we established a link into the homeland 
security information network picture in exchange liaison 
offices with the Department of Homeland Security, a national 
communication system, National Guard Bureau and the FEMA and 
joint field offices.
    We are indeed much more prepared today to respond to a 
catastrophic hurricane than we were just a few short months 
ago. In the absolute worst case scenario, we will respond. We 
will respond with every bit of effort that we can to support 
our fellow Americans. We will do this as fast as possible. We 
will give it every bit of effort needed, and our success will 
be a result of the consideration that we have had and the hard 
work as a team.
    We are working this as hard as we know how, at the same 
time maintaining a balanced approached to look at the defense 
requirements of our area of responsibility.
    Gentlemen, I look forward to your questions.
    [The prepared statement of General Rowe can be found in the 
Appendix on page 69.]
    Mr. Saxton. Thank you very much, General Rowe. Before we 
move to General Bowen and General Burnett, let me just say, I 
probably should have introduced General Blum this way, never 
before, at least in the 22 years that I have been here, have we 
depended on the National Guard to the extent that we do today. 
Tens of thousands of National Guardsmen are deployed overseas. 
We have just initiated a new program for the National Guard on 
the southwest border, and we are here today to discuss the 
important role the National Guard plays in response to 
hurricanes and other natural disasters here in the homeland.
    So we are very fortunate today to have leaders like General 
Bowen and General Burnett with us today to help us understand 
the role the Guard plays in this homeland security role.
    Thank you for being with us here today and we will begin 
with Major General Burnett.

STATEMENT OF MAJ. GEN. DOUGLAS BURNETT, THE ADJUTANT GENERAL OF 
                            FLORIDA

    General Burnett. Thank you. Good morning, Chairman Saxton, 
Mr. Meehan, and members of the subcommittee. Thank you for the 
invitation to appear before your committee today. I know you 
are deeply committed to national security and our Nation's 
response to domestic threats, including natural disasters. For 
me personally it is an extreme honor to be present before 
Members of Congress who represent the people of this Nation. I 
know of no higher honor for a military leader than to appear 
before the people.
    As the Adjutant General of Florida, I speak on behalf of 
nearly 12,000 soldiers and airmen of the Florida National 
Guard. I have submitted my full statement to the committee, 
which I ask be made part of the hearing record. I would like to 
now give a brief opening statement.
    My remarks this morning focus on three topics, Florida 
emergency response systems, our preparation for this hurricane 
season, and some thoughts for the future.
    My intent is to highlight improvements we have made since 
the 2004 and 2005 hurricane season and outline Florida's 
comprehensive culture of preparedness. The Florida system of 
the National Guard is part of the statewide emergency 
management team led by Governor Jeb Bush and the State 
coordinating officer, Director Craig Fugate. These are strong, 
experienced leaders, each with a well-earned national 
reputation in emergency response operations. The Governor 
serves as the State incident commander. In short, Governor Jeb 
Bush leads the cavalry in Florida. A Federal coordinating 
officer positioned in the State emergency operation center 
works closely with our State coordinating officer to ensure the 
ongoing flow of supplies, resources and assistance. Our unified 
response is based on a comprehensive emergency management plan 
with extensive preparations which take place throughout the 
year.
    The State of Florida's funding and preparation for domestic 
crises are significant and unparalleled. During this past 
legislative session, Florida's legislature strongly supported 
and fully funded Governor Bush's $565 million for disaster 
response. In fact, the number really is closer to $700 million 
of State funds. More than $97 million of these funds will be 
allocated to hurricane preparedness supplies, public education, 
and for strengthening home structures. 154 million was 
committed to emergency planning for special needs shelters for 
our most vulnerable, evacuation planning and county emergency 
operation centers. And, yes, Florida has accommodations for 
pets in our shelters.
    Florida National Guard is the Governor's first military 
responder, and by statute I serve as its principal military 
adviser. We prepare for homeland security and domestic security 
operations with the same intensity as we prepare to conduct 
combat operations, which we have been involved in in the last 
five years.
    During the early stages of a significant domestic crisis we 
position a command team with the Governor in Tallahassee. The 
Adjutant General then appoints a joint task force commander to 
provide command and control over military forces in support of 
relief operations, while at the same time our joint force 
headquarters in St. Augustine establishes a common operating 
picture of the impacted areas and maintains constant 
communications with the National Guard Bureau, the State 
Emergency Operations Center, 5th Army and U.S. Northern 
Command.
    Good communications builds trust, and trust builds speed, 
and speed is the essence of what we do.
    National Guard liaison teams join each of Florida's 67 
counties in their emergency operation center. They are well 
trained and they serve as a liaison to elected leadership. Our 
goal is to assist State and local agencies in reestablishing 
their governing responsibilities, while being sensitive to not 
getting out in front of elected leadership, but in support of, 
which is the way it should work in a democracy.
    As part of Florida's comprehensive response team, the 
Florida National Guard remains in the affected area until local 
elected leadership, agencies and contractors are functioning 
and can meet the needs of our citizens. Our Florida National 
Guard leadership team represents a highly experienced team, 
each having served in more than ten State activations for 
hurricane duty. In the last two years alone, they were all 
major teams.
    I was actually on the ground as an airman in 1964 in our 
hurricane season in Mississippi as a lieutenant during Camille 
and that hurricane season, 1969, and for the last two years.
    Let me turn to current assessment. In 2005, responders to 
devastation of Hurricanes Katrina, Rita, Dennis and Wilma on 
Florida. We also deployed assistance or advisory teams to both 
Louisiana and Mississippi. We learned much from these 
experiences. I think we all did.
    Based on Louisiana-Mississippi lessons learned, we adjusted 
our plans and refined procedures to improve the ability to 
respond with large-scale forces to storms of serious orders of 
magnitude.
    Along with our southeastern State partners we have 
revalidated our emergency management assistance compacts. Mr. 
Chairman, EMAC is a very workable system. It is effective. It 
saves money, and it relieves the active military certainly in a 
time of combat operations overseas.
    EMAC ensures quick and effective movement of National Guard 
forces and State employees across State lines, and I cannot say 
enough about EMAC. Some military planners have accused me of 
liking this legacy system. Well, I like legacy systems such as 
the Constitution and having the military in support of civilian 
leadership and having elected leaders charged with the response 
efforts.
    We have also conducted numerous training exercises. In fact 
when I left for Washington yesterday Governor Bush, his agency 
heads and more than 170 State emergency operations staff 
reloaded their entire staff to Camp Blanding from Tallahassee 
to show that we could reconstitute government and we could move 
from Tallahassee and never miss a lick in responding to the 
needs of our citizens.
    And by the way, this exercise was a Category 4 hurricane 
the size of Katrina hitting Tampa and at the same time 
including two terrorist bombings in our cities.
    We have more than 8,000 soldiers and airmen currently 
available for disaster response, and we have the equipment as 
well. We thank Secretary of Defense. We thank the Congress and 
General Blum for resetting National Guard equipment. As you 
know, we left a lot in Iraq and Afghanistan, and we understand 
that and respect those reasons. We also thank the Congress for 
funding the Guard and our needs that General Blum addressed 
earlier.
    My staff and I met with teams from NORTHCOM, the Department 
of Homeland Security, FEMA, 5th Army, and the National Guard 
Bureau to ensure we have one common message, one common 
response effort. The integration of these forces will lead to 
unity of effort in support of the Governor. In short, we 
believe we have made the appropriate preparations. And I can't 
say enough about the collective capabilities of the National 
Guard Bureau. No one could put thousands of soldiers on the 
ground as quick as General Blum.
    Our final thoughts, Mr. Chairman, we need to improve our 
communications capability. As we move from one interoperability 
with local first responders, our ability to up channel quickly, 
we think we are getting there. Congressman Bill Young funded 
significant amounts of money last year, and Florida has 
probably five times the capability to communicate in a blinding 
storm than we had in the 2004-2005 season.
    In summary, let me say the State of Florida and the Florida 
National Guard will be ready this season. I know this 
subcommittee and Members of Congress will continue to provide 
focus and resources on improving our response.
    Thank you, Mr. Chairman. I will look forward to your 
questions.
    [The prepared statement of General Burnett can be found in 
the Appendix on page 76.]
    Mr. Saxton. Thank you. Thank you very much. We are going to 
move now to General Mark Bowen.

 STATEMENT OF MAJ. GEN. C. MARK BOWEN, THE ADJUTANT GENERAL OF 
                            ALABAMA

    General Bowen. Chairman Saxton, Congressman Smith. First, 
thank you for your kind words about our soldiers. This is what 
it is all about as far as I am concerned, and thank you for 
those kind words. They have carried a pretty big load, and they 
are doing very well.
    It is certainly an honor for me to be here today to testify 
before this committee here in Congress, and I want to thank you 
for allowing me to be here.
    As you know, I appeared early this year before 
Representative Tom Davis's Katrina review committee and I 
understand the General Accountability Office and many other 
groups have issued reports on Hurricanes Katrina and Rita, but 
today I want to present what we have done in Alabama and what 
we did right, what we did wrong, what we have done since then, 
because as the Adjutant General for the State of Alabama, I 
work for Governor Riley. He has taken a very personal interest 
in this. So we have made some changes on what we did.
    So what we are really talking about is how does the Alabama 
National Guard provide the military support to the civil 
authorities. Well, you know, the way we look at this thing is 
the first thing, first duty we have is we want to get into an 
area, we want to alleviate the pain, we want to provide 
security, we want to provide comfort, we want to do search and 
rescue, and we want to provide distribution of supplies if 
needed. So that is what we have to do.
    So the first thing we have to do is response time, and that 
is what brings me here. Our response was very quick in Alabama. 
We start watching that cone, where the hurricane is about 72 
hours out, and as it starts approaching the gulf coast and gets 
toward Mobile, we get a little bit antsy. At that time is when 
we start moving soldiers. So the thing that would help us is an 
early declaration, so I can place soldiers and airmen on duty 
72 hours prior to landfall.
    So that will give us approval of Federal funds, Title 32, 
for the pay allowances, operation and maintenance, and this 
would further enhance my ability because what I do is I move 
soldiers down toward the coast. You know they just don't show 
up. They have jobs. They may be on 18 wheelers driving. So I 
have to get them a little alert time so I can get them back to 
the army, I can load the trucks and equipment, the sand bagging 
equipment, whatever I need, and start prepositioning it, the 
dozers, the frond-end loaders, the dump trucks off to the side 
of the hurricane. Because if I do that, then, wherever the 
hurricane hits, then I am able to move in as it comes through. 
I don't want my soldiers driving through the front of it. So we 
try to come in from the side.
    Now the reason I say 72 hours is because you know how the 
hurricanes do. They may hit Alabama. They may hit Doug over in 
Florida. The good thing about that is I will have a task force 
on board that is prepared to go down, and I can turn left or 
right. I can go help Doug over in Florida, I can go help Harold 
in Mississippi or I can help Bennett over in Louisiana, which 
we did all of this last time.
    I sent nearly 2,000 to Mississippi, 1,500 to Louisiana. I 
sent 100 to Texas and had 1,000 in Mobile, and I sent Doug 
about 100 over there. So we know how to do this.
    But things we have to do, we have to alert. We have to 
mobilize, preposition troops and supplies. So I just need a 
little time to do that in.
    We have a joint force organization that works very well. 
Doug alluded to it. What we have in our task force and I can 
bring up one task force, two task forces or three. They have 
the capability for security, communication, medical, logistics, 
and that is internal and external logistics. When I send a task 
force to Mississippi or Louisiana, I send it self-contained. I 
want it to have everything it needs for seven to ten hours--
seven to ten days so nobody has to worry about resupplying them 
where they are self-contained. And that has worked very well 
for us in Mississippi and Louisiana.
    Again the Title 32 status I want to emphasize that provides 
a lot of the benefits for our soldiers, particularly in areas 
of injury, disability, duty related deaths. State active duty 
for Alabama, I will be honest with you I hate to pull them up 
on State active duty because if I do they have no death 
survivor benefits. They have workman's comp and that is all. I 
hate to tell you that, but it is the truth. So State active 
duty is not an option I like to go with. Title 32 again is the 
answer.
    We talked about joint communications already. In this task 
force that I put together I flew over Mississippi the morning 
after the hurricane and the first thing I realized there was 
nothing down there. So I put together my task force. I used my 
satellite communication out of my Air Guard, and I used my 
multiple scriber equipment, MSE equipment out of the Army 
because that allowed my Humvees to talk to each other. There is 
nothing else down there. The long range satellite gave me the 
capability to talk back to Alabama, to talk to General Blum at 
National Guard Bureau or to NORTHCOM if it needs to go. That is 
how we did it, and we did it well.
    So now we are doing some things different. We did not 
deploy our civil support team this time with the interoperable 
van that we have that makes us talk to everything because I 
sent it to Mississippi. But I now have, the State of Alabama 
has picked up more of those vans, like Doug was talking about, 
so now then we will have those also available.
    One of the things I do, I believe in putting liaison 
officers to each one of the headquarters. I send them to the 
Alabama emergency management agency, their emergency operations 
center (EOC). I also send them to the counties that are 
affected and I receive them from the State Emergency Management 
Agency (EMA) or National Guard Bureau or from NORTHCOM. We just 
believe it works well if they got situational awareness and 
knows exactly what is going on in Alabama because that provides 
better response for our people here.
    One of the other things I do that we had not thought about 
the last time we did it is sundry packages. You think that is 
not important, but when you put a soldier out there working 18-
20 hours in water up to his knees in the filthy conditions, we 
were able to contract porta potties from Birmingham, Alabama 
because there is not any down there, also shower units. We send 
sundry packages that had everything from Gatorade to post 
exchange items and personal because these soldiers are working 
hard and they are in miserable conditions, I will tell you. One 
of the soldiers told me, he apologized, he said, sir, I lost a 
magazine of ammunition. I said, well, how did that happen, son? 
He said, well, I was in New Orleans, we were doing search and 
rescue, and it fell out while I was rescuing somebody off a 
house and, sir, I wasn't getting in that water. And I 
understood. We will write that one off. But it is very 
miserable conditions they work in over there is what I am 
trying to get across to you. It is very important we take care 
of those soldiers.
    Medical package, I think a medical package command of Army 
and Air also, and I do that because I have got a few more docs 
and Physicians Assistant (PAs) in the Air than I do the Army, 
but the Army had the medication. And I do that to take care of 
my soldiers. I will let the civilian authorities and the other 
agencies come in and take care of the civilian population. But 
I have to have medical help there for my soldiers. We did 
deliver a baby while we were down there. We will do things if 
we have to. I tell them if it has a bone sticking out and it is 
bleeding, we will take care of it. But we are not there really 
to take care of the civilian population.
    Another thing we learned worked very well, I have topo 
units, topographical units that makes maps. We got to 
Mississippi and there were no street signs and no maps, 
Shreveport same way, and New Orleans.
    So we sent a topo unit that made maps for us right there. 
They became the most hot commodity down there besides the water 
and ice. Everybody needed a map because you know when you get 
in there you can tell where you are. That worked very well.
    So now we have loaded that into our task force. So when I 
load that task force, topo unit will be with it. Very critical. 
So that is one of those things we learned.
    The EMAC General Burnett referred to in a minute, that 
works great. It is not broke, let's don't fix it. If Doug calls 
me or if General Cross from Mississippi calls me, it is a done 
deal, and it works very quickly, very smoothly. But one of the 
things we need to remember is that EMAC is not just for Alabama 
National Guard. It is also for the Department of 
Transportation, Department of Public Safety, Fish and Wildlife, 
law enforcement agencies. We sent a lot of law enforcement 
agencies into Mississippi, Louisiana. They all worked under the 
EMAC system. That works very well. So that one is not broke.
    One of the things I do want to do is we have been faxing 
and stuff back and forth, and that fax gets a little smudged 
after it goes so we are working on, they assured me in Baton 
Rouge, to have it where they do that electronically and that 
will work much better.
    What did I do wrong? I sent college students, pulled them 
out of college. Sent them. I needed them. Their unit was called 
and they went. But then some of them on college scholarships, 
some of them on military scholarships, and the parents got a 
little antsy. So after 4, 5 days I sent a bus back over there, 
we loaded about 44 of those college students up, brought them 
back home. I learned from that. I won't send them next time 
unless it gets real tight. They don't want to come home. They 
were happy as they could be. But that is one of the things I 
learned.
    We have to get those public affairs people in there 
quicker. We have to tell the Guard's story. We did not do a 
good job of that. Now we sent some locally but it went to local 
newspapers. And we have been talking that everywhere I have 
been. We ought to have sent them in initial forces. We have to 
manage it a little better. The public wants to know about the 
logistics, about the safety, about the issues, what is going to 
happen next? We have to do a better job of that and we will do 
that.
    Internal planning, just like the rest of them, Alabama 
National Guard conducted internal exercise. We called it DRAGON 
SLAYER, went to include all agencies. We exercised our joint 
operations center headquarters, our standard operating 
procedure (SOP). We wanted to validate it, make sure we have 
been using it, it works great. The Governor had a table top 
exercise that brought all the agencies in. We started 96 hours 
out and we went in a big room and everybody had to say 96 
hours, 72 hours, 40 hours, what are you doing, what is going 
on? We have worked out, we had FEMA, we had NORTHCOM with us.
    One of the things that came out of these is we will have a 
(PFO), principal Federal officer, there that can make the 
decisions on the Federal dollars right there without having to 
go through several layers of bureaucracy. That went very, very 
well. I think that is done up very good.
    We did the same things. Hurricane States have a quarterly 
hurricane conference. They meet regularly. And they have 
identified the worst case scenario, which is for me a Category 
4 or 5 off the middle of Mobile Bay, probably have a 20-foot 
storm surge, would drain out pretty quickly, not like New 
Orleans. We do have some equipment shortages based on 
deployments, units to overseas and Iraq and Afghanistan, a lot 
of equipment left. We do have some shortage. I feel confident 
that Congress will take care of those issues so we will have 
those equipment. I know in Alabama one of the things I am going 
to have this next time probably is going to be some shortages 
of engineer equipment, fuel haulers always critical, if you 
will think what it was last year we really had a fuel shortage 
that time. And then aircraft. My first 131st Aviation deployed 
right now to Iraq. I won't have the Blackhawks that I had last 
year. But I will be calling through EMAC, my sister States 
here, and say, hey, I need a little coverage this time.
    Federal coordination, as I say, we sponsored all that, we 
have done all those kind of things. We had a commander summit 
here in Alabama made up of Maxwell-Gunter, Redstone, all the 
active, and we have--altogether we have a list and the 
preference was for us to identify all the capabilities of all 
them kind. And they are ready.
    I just got back from a--General Rowe referred to it--I 
asked the general conference, Baton Rouge, Louisiana, the focus 
of the hurricane, the conference was hurricane preparedness. 
They were talking about EMAC agreements. We talked about 
National Guard Bureau's role. We talked about public affairs. I 
am very confident in the planning that has happened in the 
local and State, national levels for 2006.
    One of the areas that we haven't talked about is what we 
call RSOI, reception, staging and onward integration. One of 
this things I found in Katrina and Rita we had a lot of States, 
we moved a lot of soldiers down there. A lot of them drove 
through Alabama, and they wanted to spend the night in Alabama, 
and they wanted me to refuel them. Fuel was short. We got fuel 
everywhere we could get it. We had to take care of them. We had 
to house them. It was very intensive. We used all our 
maintenance shops, we used all our air bases and all our armies 
taking care of these coming through. I have assigned that to 
the 167th Theater Sustainment Command. They will have that 
mission this time we are prepared.
    We also built some container express (CONEX) containers. 
Each CONEX container will handle about 500 soldiers and in that 
CONEX we have MREs, we have water, chain saws, gloves, goggles, 
reflective vests, communication packet radios, chem lights 
access, everything you need. So if I am going to send a task 
force of 500, 1,000, 1,500 we just load them on the trailer and 
here they go.
    I talked about Civil Support Teams (CST) vans. We know 
that. I talked about the lack of aviation. I am going to have 
the Memorandum of Understanding between States, the law 
enforcement, the rules of engagement. They are working to get 
that sort of standardized, so it is not a real problem.
    Another area you wouldn't think about was the disengagement 
criteria, and that is that it is hard to get out of there. When 
you get in there, the public people want you. And so we have to 
have disengagement criteria and we established that early on.
    One of the things we look at, is the Wal-Mart open? If they 
are open, it is time for us to go home. And we engage with them 
early on because we are here, but we are going to leave early.
    Again let me remind you, we do need some equipment. We need 
to practice. We need Title 32. That is the critical things we 
need right here. Alabama furnished about 6,000 soldiers this 
last time, and I am confident in our ability to respond this 
next time, and again I certainly appreciate you having me come 
here, and thank you.
    [The prepared statement of General Bowen can be found in 
the Appendix on page 92.]
    Mr. Saxton. General Bowen, thank you very much and, General 
Burnett, thank you for being here with us today.
    As I said at the outset, we are dependent on the Guard 
today more than any time in recent history and so we thank you 
for the leadership roles that you play.
    Mr. LoBiondo and I both represent coastal districts in New 
Jersey, and the last time that I recall a direct hit, a serious 
hit from a hurricane was 1962. And in your case, every fall or 
every summer and fall when the hurricane season starts, you 
have to be sitting there thinking, which one of us is it going 
to hit? So we appreciate your situation, and your experience 
and the wisdom that you bring to today's discussion is very 
much appreciated. We are going to go first for questions to Mr. 
Smith. And go ahead, sir.
    Mr. Smith. Thank you, Mr. Chairman, and thank you all for 
the testimony. It was very informative and appreciate the work 
that you do.
    A couple of areas I want to hit on. One, as I mentioned, 
coordination, I guess the aspect of it I am most interested in 
is coordinating with the locals, the local communities, and 
most specifically, you have to sort of deal with the 
executives, whether it is a governor or mayor, county 
executive. And all the emergency preparation that is going on 
on the Federal level and even on the State level, you know it 
is primarily a lot of career people who are involved in that. 
And by and large I think they do an outstanding job. It is what 
they do. They are used to talking to each other. They get to 
know who is who and are ready to go. But then when the disaster 
hits, well, you have to deal with a bunch of politicians, and 
local politicians, who you know have been running a whole bunch 
of different issues.
    And I think one of the things we tried to do in my State 
and that General Lowenberg, who is our Adjutant General in that 
State, has really worked very, very hard. Every time a mayor 
gets elected, every time a county executive gets elected, they 
bring them in and say, hey, if something happens in your 
county, we are set up ready to go. You are the guy who has to 
make the decision. Are you ready to that?
    I am curious in your plans on how you are doing, how you 
coordinate, specifically with those local officials, and on the 
Governor level, may work very closely with National Guard and 
all that. It is more on that local level I am interested in. 
Mr. McHale and then General, if you will.
    Secretary McHale. Congressman, what I will do is just give 
a brief introduction and then turn to others who at the 
operational level have been integrating their planning and 
deployable capabilities with State and local officials. One of 
the real differences this year compared to last year is last 
year a Principal Federal Official under the National Response 
Plan wasn't named until we were well into the crisis. If I 
recall correctly, the hurricane came ashore on August 29th and 
it wasn't until August 30th that we had a Principal Federal 
Official named to take charge of the coordination of the 
Federal response to Hurricane Katrina.
    By contrast this year a Principal Federal Official has 
already been selected. His name is Gil Jamieson. He has been 
physically located--I am focusing now on Louisiana. He has been 
physically located in Louisiana. Although I don't know his 
schedule precisely, I would estimate for about two months. He 
was named about three or four months ago. He has been on the 
ground communicating daily with State and local officials to 
ensure that when we in the Department of Defense support the 
Department of Homeland Security and FEMA in the integration of 
Federal response capabilities of the type that we have all been 
describing during the last hour, that that capability in turn 
is properly coordinated with State and local officials.
    Our engagement with State and local officials exists in two 
ways. At the policy level we do it through the Principal 
Federal Official, Mr. Jamieson, and our contact with him has 
been very close and very detailed. He knows exactly what 
capabilities DOD can deliver.
    And then at the operational and tactical level, General 
Rowe, who is seated on my left, General Blum, seated to my 
right, use Title 10 forces and Title 32 forces to integrate 
with State and local authorities.
    And I would like to turn to them to bring it down a couple 
of rungs to talk about how they operationally have been 
engaging with their Louisiana counterparts.
    General Rowe. In Louisiana we have a full-time planning 
team collocated with the Federal coordinating officer planning 
team, headed by Lee Foresman, who works for Mr. Jamieson. It is 
headed by a Colonel. It includes representatives from Northern 
Command, but also from United States Transportation Command, 
Joint Readiness Medical Planner, and they are working with the 
State officials, extraordinarily good relationship with the 
National Guard State Headquarters.
    I took a debriefing this week from one of our planners, and 
the officers in charge down there was the Colonel, who remained 
in touch in New Orleans for almost 60 days and he has a very, 
very good relationship with Terry Ebert, who is the City 
Emergency Manager in New Orleans. They are working very hard to 
understand the local and the State plans.
    I think, as has been highlighted, there have been 
challenges with sheltering, there are challenges with the 
details of the transportation plan. Until you know where you 
are going to take someone to be sheltered, it is hard to build 
your transportation plan. We are very actively working the 
special needs population. One solution is to throw the hands up 
and say U.S. Transportation Command (TRANSCOM), come with big 
airplanes and help us. The problem with that is if you wait 
until you throw your hands up, big airplanes can't come in and 
fly into the airstrips, and so we are really working the 
details of that to understand, very good relationships.
    Backing out from Louisiana, there are currently a review 
led by the Department of Homeland Security, but with the strong 
Department of Defense effort to look at 131 State and local, 
large local regional plans associated with overall evacuation, 
tries directly to----
    Mr. Smith. If I may, General, one more thing I have to ask 
on behalf of Mr. Taylor before I go, and General Bowen, you 
looked like you have something specifically you want to say. If 
you do that I quickly and I will ask Mr. Taylor's question 
quickly and move on.
    General Bowen. Very quickly, I want to take it to a little 
bit lower level. The way I tell my people to respond to those 
mayors who come out, who are elected and the police chief, they 
are in charge. We are there to support them from below. They 
may have two deputies in a whole county and 150 MPs. But we 
work for them.
    Mr. Smith. Absolutely and sometimes that is the problem, 
because you are trained and you are experienced, and they are 
like, this didn't come up in the campaign.
    So are you working, are you working with them now as they 
come?
    General Bowen. Yes, sir. We had all the sheriffs in the 
hurricane counties that came to Montgomery for the hurricane. 
We know them very well. We work with them daily and on other 
issues. It is not a problem.
    Mr. Smith. That is what really needs to happen. You never 
know--obviously I mentioned the campaign. In Louisiana if you 
are running for mayor of anywhere it is a big issue. But it 
wasn't two years ago.
    So the question Mr. Taylor was interested in, specifically 
someone had mentioned the problem with fuel and he was 
wondering if there had been plans set in place on two fronts, 
one, if we are talking, primarily talking about coastal areas, 
if you are talking about hurricanes to barge in fuel, take 
advantage of--Mr. Taylor had mentioned during the Katrina thing 
some hospital ships were brought in and sort of used the access 
points of the water, if there are any plans in place to barge 
in fuel, first of all. And second of all, the issue of 
contracting in advance for fuel. I realize that can be a little 
tricky and that you are contracting for something that you hope 
won't happen, but if you don't you show up in a situation where 
fuel prices are going through the ceiling and anyone who has 
got it to sell knows that every day they hang on to it it is 
more expensive, and I know that was a bit of a problem in 
Katrina.
    So if someone could touch on those fuel issues quickly. I 
see a couple of hands. I will go to General Burnett and General 
Rowe and I am done.
    General Burnett. Florida uses 25 million gallons of fuel a 
day. That is a lot. We get most of our fuel through barges 
because of our littoral coastline. There are issues there. One, 
you have to keep the fuel in the tanks full before the 
hurricane come along because there is structural integrity 
based on fuel moving in the tanks.
    What the Governor has done, he has partnered with our 
filling station vendors. They have generators now in place to 
pump gasoline. We try to manage that throughout the State with 
our Department of Environmental Protection Agency head. So we 
learned that in 2004, and I think we have a very good plan to 
do that across Florida, balancing those fuel loads. It is a 
tough one to handle, but I think we have our arms around it and 
lessons learned from the past.
    General Rowe. This is from traveling with Secretary 
Chertoff and Mr. Paulson, Chief Paulson. They have built within 
FEMA a construct to position fuel early along the evacuation 
routes. I have not heard discussion about delivery of fuel over 
the shore following a storm strike. Certainly that is a 
possible solution.
    Mr. Smith. I am sure Mr. Taylor would want to follow up and 
find out, and so will I. Thank you, Mr. Chairman. I appreciate 
you being generous with the time.
    Mr. Saxton. Thank you very much, Mr. Smith.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here. It is good to see you again. Most of you are 
here again, and again it is nice to have the The Adjutant 
Generals (TAGs) here.
    Several directions I would go here, I am interested in the 
resetting the Guard's equipment issue, but we could probably 
talk about that all morning.
    Let me go instead to the how do we get activated, and when 
do we get activated, and the who is in charge question, not 
between the National Guard and the sheriff, but I guess I am 
swinging around to you, General Rowe. When I was out visiting 
you guys a couple of months ago, a great tour, I was very, very 
impressed with the discussions with Admiral Keating and with 
your folks, well organized. NORTHCOM has representatives from 
virtually every relevant agency, as I recall, including even 
nongovernmental agencies like the Red Cross. So I was very much 
reassured that NORTHCOM is in a position to coordinate, to 
command if necessary, had the information necessary, the 
intelligence, if I can use that word in this context. But the 
question is, and I am looking at you, Mr. Secretary, or you, 
General, how do we activate that and in what terms?
    Let me just talk for another 30 seconds and I will look for 
some input from you. I would assume, for example, that the use 
of your satellite phones, General, could be made available at 
the drop of a hat, there is not a whole lot involved in that.
    And if the TAGs in Florida or Alabama or Louisiana or 
something needed more communication, that kind of thing, you 
could do--we have talked about some support from the Defense 
Logistics Agency, probably not a lot involved in that. But if 
you are looking about command and control, as we saw in 
Katrina, when we went from FEMA to Admiral Allen, that was a 
significant change in who is in charge and how it was run.
    So my question, Mr. Secretary, General, anybody, is what 
does it take to put NORTHCOM in charge and is that something in 
your judgment that we want to do?
    Secretary McHale. Sir, the literal answer to your question 
is no. Nor is that provided by the law. But your question, 
nonetheless, is a very good one. The person who represents the 
senior Federal authority on the scene is the PFO, the Principal 
Federal Official, and unlike last time, as I said earlier, 
where Mr. Brown was not designated until the day after 
landfall, Mr. Jamison as the PFO was already in place, already 
down in the Louisiana area. I didn't mean to focus 
disproportionately on Louisiana, but because of the remaining 
damage from Katrina and the amount of temporary housing in 
Louisiana, Louisiana remains our most vulnerable area in terms 
of a hurricane this year, though obviously we face a danger 
throughout the entire region. In any event, the PFO is Mr. 
Jamison, and we in the military bring our forces in to the area 
of responsibility in to the AOR to support him in his DHS/FEMA 
mission.
    Mr. Kline. Let me interrupt. I understand why you are 
talking about Louisiana and Mr. Jamison in the past, but as we 
have discussed, we could be talking about a catastrophe 
anywhere.
    Secretary McHale. It could be a terrorism attack.
    Mr. Kline. So I would like to kind of put it in that 
broader context. It is not enough when it comes to the point 
where the tag--the government of the tag simply can't do it and 
you have the--okay, we have the agreements with the other 
States, and we have said that is not broken. We don't need to 
fix that. But there comes a time when it is overwhelming.
    Secretary McHale. Yes, sir.
    Mr. Kline. And I guess----
    Secretary McHale. And that is when we get engaged.
    Mr. Kline. So I am working back to the point where I was 
earlier. I know I am going to run out of time. NORTHCOM has got 
in place all the pieces. It appears to me. All the pieces that 
you need to coordinate.
    Secretary McHale. Yes, sir. And give me just a moment, and 
I will try to be of assistance.
    The PFO is either in place, or if it is some other part of 
the country, if it is New England, the PFO will be named by 
Secretary Chertoff as soon as the requirement for a PFO would 
become apparent. Throughout the gulf coast, we have already--
Secretary Chertoff has already named the PFOs in anticipation 
of hurricane season. So he names the PFO. Now to get to the 
heart of your question. We should bear in mind that in response 
to Hurricane Katrina and in a similar manner in anticipation of 
future catastrophic events, only about 30 percent of the 
military force came under NORTHCOM. About 70 percent of the 
military force, the National Guard, came under the EMAC 
agreements and the respective governors.
    So we anticipate that in a future domestic response whether 
it is a hurricane or terrorism attack, that rough ratio would 
probably remain in place. So NORTHCOM has everything they need 
for the Federal active duty piece, but that is probably only 
about 30 percent of the military response. The 70 percent, the 
more robust element of the response would be through the EMAC 
agreements described by General Blum and our two adjutant 
generals, and at this point, let me pull back and let NORTHCOM 
talk about how they would be put in a position for rapid 
deployment. Essentially, it would be in my judgment the verbal 
authority of the Secretary of Defense to transfer Title 10 
forces to NORTHCOM consistent with the needs identified by 
Admiral Keating and that would be the 30 percent of the force.
    For the 70 percent, we would go back to the EMACs and the 
dialogue between the adjutant general coordinated by the chief 
of the National Guard bureau to move in that larger portion of 
the force. But let me turn to General Rowe and General Blum for 
their comments.
    General Rowe. Sir, you really lay out--we will generally be 
in support. And ahead of a storm strike, unless incredible 
circumstances where a governor and a President agree, the 
change how we are going to handle a natural disaster we will be 
in support for the lead Federal agency and the lead within the 
State will be--the governor will lead that fight using all of 
his tools as the tags have laid out. Post strike post natural 
disaster, which hurricanes give us a little warning, they don't 
tell us where. Other natural disasters might not give us any 
warning at all. Now it is the read there has been a culmination 
of the culpability of the local responders and the State 
capabilities to support the people who need--to have their 
lives saved to preserve life, to do the immediate recovery, to 
protect infrastructure, they have. Those circumstances, I 
think, could result in a call to say a Federal response, once 
again, agreed on conversation between the governor and the 
President and the Presidential decision, in which case an area 
would be defined, the force arrangements for command and 
control when they are defined we are set up superbly for that 
poor--I don't think there is a high probability of that, but we 
are set up well with that now with the standup of 5th Army, the 
development during our qualification of their operational 
command post, which is now joint configured to be prepared to 
come in, either to be in support of a Federal agency and 
support of the State, or if given the responsibility, to be a 
lead effort in which case the student body arrangements would 
be in the other direction. But most of the time we will be, 
when directed, in support for civil support.
    General Blum. Let me make a point. You hit on a very core 
issue here. This is the United States of America, which 
obviously nobody in this room needs reminding, but it is, to 
put it in context. The United States military always, as long 
as we are the United States of America operating under a 
constitution, will have its uniformed members in support of the 
elected civilian authorities that have been charged with the 
responsibility and authority to govern our States and to govern 
our Nation.
    Having said that, the only time that the military is ever 
in charge of anything is that they are in charge of commanding 
and controlling the military assets that are being sent in 
support of that mayor, that governor, the President or whatever 
elected official in our Nation or in our States, or at the 
local level, if necessary, needs the assistance that only, that 
only the military can provide because it either ceases to 
exist, or it did not previously exist somewhere in the civilian 
community. As good as DOD is, you don't want it running the 
government of a State, a county or this Nation at any given 
time.
    Having said that, I would like you to put up that chart, 
please. We take our responsibilities of support very seriously, 
and even though as Chairman Saxton said, we have 71,000 people 
involved in that gray part of the chart overseas fighting the 
war on terror. And we have 6,000 recently assigned to a mission 
on a southwest border. That still leaves you 367,000 citizen 
soldiers and airmen that are commanded by the kind of guys you 
see at this table in 50 States and four territories of our 
Nation, and all of that blue pieces are the States that I think 
are vulnerable for the hurricane season that is coming up.
    So we at the National Guard bureau are working very close 
with Northern Command, they know what our capabilities are and 
they know what our limitations are. We cannot do everything. 
But we can do much of what is routinely required for a natural 
disaster response.
    And then Northern Command, to specifically get to your 
question, what do they do, they fill in the gaps and fill in 
the niche capabilities that the National Guard that is forward 
deployed in literally every place that anybody votes in this 
Nation, because that is where they live, and that is where 
anybody cares where anything happens. We have a presence in 
5,400 communities around our Nation. So we are the first 
military responders, but we are responding in support to 
whatever legal elected official is in charge of that property, 
the political boundary and that problem that affects that 
boundary.
    Mr. Kline. Thank you. I yield back.
    Secretary McHale. In responding to Congressman Kline's 
question. I said in a general sense, that about a third of our 
force would come out of Title 10 forces in response to a future 
disaster and about two-thirds would come out of the National 
Guard, and that is true for a natural disaster.
    The point I wanted to make in closing, was if we have a 
terrorist attack involving chemical, biological, radiological 
or nuclear contaminants, the percentage of the Federal force 
under NORTHCOM would likely go up as a relative percentage, the 
Guard would go down because some of our most robust high-end 
capabilities for a terrorist attack involving seaborn 
contaminants can be found primarily within the active duty 
force, so that rough construct one-thirds/two-thirds generally 
fits, but it has got to be adjusted to the requirements at 
hand.
    Mr. Kline. Exactly. If you can indulge me since we 
reentered the conversation here. I do understand civilian 
control of the military and I appreciate the reminder and the 
lesson, General but the question was looking at the 
capabilities that NORTHCOM has got, inherent in the command in 
the building with all the people there, when and how would they 
be activated to be able to bring that to bear, never mind the 
forces, the 70 percent, 30 percent or 50 percent or 50 percent 
or 30 or 50, it is what is involved in that command. The 
people, the structure, the communications, the ability that in 
the event of a terrorist attack or some very major attack, you 
may want to bring that to bear, and the question was how do you 
get them to bear.
    Secretary McHale. A very good question. I am sorry, sir. We 
didn't give you an adequate answer. The answer is as soon as--
we are talking about a hurricane it would differ obviously for 
other kinds of--but if it is a hurricane, we would probably get 
notice a week out of a tropical storm approaching a given area 
of the country. We began tracking the hurricane that became 
Katrina about seven days before landfall. It was a tropical 
storm, very low level tropical depression, I think, out at that 
point out in the Atlantic, but we knew about it. We had no idea 
at that point it would be so severe. We track very carefully in 
advance. We have a standing executive order that has been 
signed by the Secretary of Defense that has already delegated 
to Admiral Keating at NORTHCOM, certainly preliminary authority 
within his own authority delegated by the Secretary to begin to 
respond to an approaching catastrophic event.
    So about seven days out, six days out, five days out, 
Admiral Keating has the authority to deploy those Damage 
Control Officers (DCOs). He has the authority to select bases 
for staging areas. He has certain other competencies that has 
been delegated to him. But I would estimate as the storm 
becomes more severe, three or four days out, the Secretary of 
Defense based on the recommendation of the combatant commander 
at NORTHCOM would then transfer from our operating forces, our 
service components, the capabilities to NORTHCOM that would 
seem to be appropriate for the mission that was at hand, the 
approaching catastrophic storm or a catastrophic hurricane.
    And it would be our expectation that is consistent with 
what is known at that point, about three to four days out, DOD 
would chop forces to NORTHCOM for employment in a possible 
response and at the same time our civilian leader would be 
looking at issues such as evacuation, potential search and 
rescue, those kind of things.
    So the time line is dependent in the case of a hurricane on 
what you can anticipate in terms of weather for coast and about 
the outer limit of that is maybe seven days out from landfall 
with significant military action taking place in response three 
to four days out.
    General Blum. To include the repositioning Naval forces so 
they can be in the right place to come in and help. That is 
what NORTHCOM would do. The Guard can't do that.
    Mr. Kline. Thank you.
    Mr. Saxton. Thank you very much for the great questions, 
Mr. Kline. Mr. Langevin.
    Mr. Langevin. I want to thank you for being here this 
morning. I especially want to thank Secretary McHale and 
General Blum. We always appreciate you being here, and 
appreciate the job you are all doing. I would like to actually 
build on that question on an area that I wanted to touch on.
    Because I recognize that much of today's potential 
involvement to hurricane response will be dependent upon 
assistance from States, and as well, as the Department of 
Homeland Security. So to what extent and does DOD coordinate 
with States and Homeland Security immediately prior to an 
event. As you were just discussing, you know, the National 
Hurricane Center projects that a level 4, level 5 hurricane is 
approaching the U.S. Coast. Is there or what is the mechanism 
for DOD to reposition any supplies or equipment to expedite 
disaster response?
    Secretary McHale. Again, let me give a brief introduction 
and turn to the officers who have been coordinating this on a 
tactical level. Our coordination with the Department of 
Homeland Security, and specifically with FEMA, in anticipation 
of the 2006 hurricane season has been daily, and that 
coordination has been at that level of engagement for many, 
many months now. I spent, just as an example, I spent three 
hours in a tabletop exercise yesterday with Secretary Chertoff 
and other cabinet officials, where the scenario being examined 
was a catastrophic hurricane passing directly over New Orleans. 
General Rowe is the operations officer for NORTHCOM, has just 
concluded a two-week exercise, a major element of which was a 
catastrophic hurricane coming ashore in Louisiana.
    We have been working with FEMA, with HHS, and with all 
other interagency's partners for many months now in a series of 
almost unlimited exercises to determine what are the 
requirements to assist civilian authorities to include law 
enforcement authorities in the case of National Guard 
capabilities, and what do we need to get those ready.
    And we have a high level of confidence that based on that 
degree of coordination that I would ask these two gentlemen to 
describe in detail that we have spring loaded--a rapid DOD 
response with robust capabilities to provide an even faster, 
more competent response than the very good response that we 
provided as a Department last year.
    Last year was the largest fastest military civil support 
mission by far in our Nation's history. This year we can do 
better because of the coordination. I would ask these gentlemen 
to describe.
    Mr. Langevin. Can you also expound on the mechanism you are 
using to coordinate directly with the State who you are talking 
to, and one of the things that we heard from Katrina, there was 
not good coordination between State and local and Federal 
Government.
    Secretary McHale. I will ask General Blum to talk about 
that. The direct coordination between the Federal civilian 
leadership, and the civilian leadership of an individual State 
is a responsibility assigned to the Department of Homeland 
Security. Secretary Chertoff has the responsibility to 
communicate with the governors to ensure that communication 
from civilian to civilian at the elected level of leadership, 
or in the case of Secretary Chertoff, that our senior civilian 
Federal and State are talking to each other. We are in a 
supporting role to Secretary Chertoff, and what we do is 
communicate closely daily continuously with a full-time staff 
from DOD over at DHS to make sure we understand the overarching 
Federal plan, and what we do is communicate operationally 
primarily through the adjutant general in the individual States 
through the military contact that we have.
    We support through those military contacts the overall 
civilian-led effort where Secretary Chertoff has the ultimate 
responsibility. So I would ask General Blum to talk about how 
he has been coordinating with the States through the respective 
adjutant general.
    General Blum. Great question.
    Short answer: In the past, what you described the 
coordination between DOD and the State and local level, it 
didn't exist.
    In the last, particularly in the last year and a half, it 
has gone through what I would call the crawl phase to the walk 
phase to the full run phase, and I think we are--right now, it 
is probably as good as it has ever been and probably--and 
probably not as good as it needs to be, but we are working on 
it every day.
    I can tell you that the National Guard and Northern Command 
constantly, the communication between us is constant and is 
continual and it is ongoing. It never quits. It is a dynamic 
process. And we are constantly tweaking our capabilities. 
NORTHCOM knows what we can do, and he knows what we cannot do, 
and they plan what we cannot do or what they might have to do, 
if we cannot do what we think we can do, and that is not double 
talk. That is actually a military contingency plan, and it is 
going on at the highest level of DOD, and having said that, 
what Northern Command lacks and will never have, and I will 
never have at the National Guard bureau level, is the local 
knowledge, the existing relationships that are necessary for 
the confidence trust and efficiency when a disaster strikes 
that area, and the trust and confidence of the local people.
    That is where these two gentlemen put the foundation for a 
solid response. They can't do it all by themselves. But they 
do, in fact, at the--for the military part of it, they set the 
foundation for the military response at the State and local 
level, and they field me the same situational awareness and 
common operating picture of what their capabilities are, and 
what their limitations are, frankly, in equipment or personnel, 
or in skills or certain expertise sets.
    If I can find them through EMAC, through emergency mutual 
assistance compact that the governors have signed on to from 
next door in Alabama and even in Rhode Island, we will arrange 
for that. If I don't have it and I can't get it, I communicate 
that to Northern Command, and they find it within the DOD Army 
Navy inventory, which is quite capable, obviously.
    Now having said that, that is not the whole solution, sir, 
because you do have at the State level, and here is where--that 
same kind of process that I just described that is happening on 
the military level at State, national and DOD through Northern 
Command needs to happen with the State emergency managers who 
are the civilian counterparts of the Department of Homeland 
Security in these States. That has to also occur at that level 
so, that we have the State energy planner emergency what the 
month emergency planner capable of doing, and what they are not 
capable of doing and that has to be passed up to regional 
people that work for DHS and ultimately to the national level 
because when it happens, either at the State level, at a 
national level or DOD level, the uniforms are still going to 
come in support of the Department of Homeland Security, 
probably, or one of their sub elements that are to leave 
Federal agencies.
    Secretary McHale. With two-thirds of our force likely to be 
drawn from the National Guard, the military portal into the 
State is through the adjutant general. Two-thirds of the 
military response for a natural disaster will likely be drawn 
from the National Guard, and so to find out how we can best 
employ those guardsmen, many of whom will be coming from other 
States, this gentleman seated on my right, General Blum 
communicates constantly with the adjutant general of the State 
so that we can be informed as to how those forces can be best 
employed under the command and control of the governor.
    Bear in mind two-thirds of the response though paid for by 
DOD will be under command and control of the governor so the 
adjutant general of the State becomes the critical player in 
enabling most of the military response.
    Mr. Langevin. Just one quick follow up to that, if I could. 
I recently, over the weekend, I had a discussion with our 
State's adjutant general. And he was talking about trying to 
look at better options for getting preapproval for deploying 
assets when it is likely to be a federation of a Federal 
disaster. And is there a better mechanism that we could almost 
give preapproval for deploying assets. I think the States would 
likely to predeploy assets if, in fact, they knew they had at 
least some support and there was going to be some Federal 
reinforcement.
    General Blum. That is an excellent, excellent point. And is 
good preparation is largely dependent on the resources that the 
State has to be able to apply for that appropriation. You heard 
General Bowen say, and all of the governors and all of the 
adjutant generals can call out their National Guard in a non 
paid status if they need to. But then as we tragically found 
out in Katrina, sometimes we lose national guardsmen in 
responding to hurricanes and trying to save lives.
    And they get injured. And they are not covered properly. 
And they are not compensated properly. So in the past there was 
no appetite and no interest at the Department of Defense level 
for providing Federal funds to the States for hurricanes. Zero 
interests. That has changed. And I think if we were--had 
reasonable data that said we are going to have landfall in 
Newport, Rhode Island when the next 72 hours, or it was even 
possible I think that we would be able to obtain at this point 
the resources beyond calling people up on State active duty or 
probably Title 32 would probably be made available in 
reasonable amounts where in the past that wouldn't even be 
considered. And I will leave the rest of that to Secretary 
McHale.
    Mr. Langevin. Is there a change in the law that we need to 
make sure that we can do that.
    Secretary McHale. I don't think there is a change in the 
law, but I think we need to and will likely implement some of 
our procedures under the national response plan along a 
different time line than what we used last year. From numerous 
meetings that I have attended with Secretary Chertoff on this 
topic, I think particularly with regard to some of the 
vulnerable areas of the gulf coast, we would likely see an 
early emergency declaration recommended by Secretary Chertoff 
and a very cautious approach to an early declaration of an 
incident of national significance.
    We frankly, within the Department of Defense, have no 
difficulty at all resolving the very significant question of 
whether those 50,000 guardsmen should be placed in Title 32 in 
response to Katrina. That was a huge decision quickly and 
relatively easily made, because it was clear to the senior 
decision makers, most especially the Deputy Secretary of 
Defense, that placing those forces in Title 32 was the right 
thing to do. What I am suggesting is that in light of what we 
have learned from Katrina, if we were to have an early 
declaration by the Secretary of the Department of Homeland 
Security that we faced an incident of national significance, it 
is quite probable though the decision belongs to the Secretary 
of Defense, it is quite probable we would do exactly what we 
did last time, and that is place the Guard forces in Title 32 
without serious debate.
    Mr. Langevin. I appreciate your answer, and I think that 
would be an important step toward making sure we are as 
prepared as possible if this occurs.
    Secretary McHale. Yes, sir.
    Mr. Langevin. Thank you for your testimony. Thank you.
    Mr. Saxon. Thank you very much for the great questions. 
Very pertinent. Thank you.
    The Chair recognizes the gentleman from Kentucky,
    Mr. Davis. Thank you, Mr. Chairman. Listening to all of the 
comments of planning remind me of the first rule of Roger 
Rangers don't forget nothing. Just brings to mind a couple of 
questions that I would like to ask regarding the leadership 
aspect of this. There is certainly no substitute on the ground 
for initiative in the localities where disaster strikes on the 
front lines, and we saw firsthand, at least from a distance, 
the human factors impacting leaderships in the different 
States.
    There were some qualitative contacts, and based on that 
local leadership, we saw great local officials move forward, 
but one thing that I am particularly interested in is if you 
have a first of two contingency questions worked into your 
exercises dealing with a recalcitrant State or local elected 
official and dealing with your chain of command, if they are 
paralyzed, unable to make a decision, how you would work around 
that and coincidental with that, is do you have a plan in place 
for federalizing assets in the case of that type of resistance?
    Secretary McHale. Congressman, let me answer that again, 
first, as a matter of policy and then invite comment from my 
colleagues.
    We are the Department of Defense and if there were to be a 
situation where, let's say, a State official exercised 
profoundly poor judgment in terms of responding to a disaster, 
the Federal official who would have the responsibility to deal 
with that, let's say that governor would not be the Secretary 
of Defense, that responsibility is entrusted by law to the 
Secretary of Homeland Security.
    Our military role is to support that Secretary of DHS and 
so if a decision were made to bring in the military a greater 
unified command and control role, the option that is available 
by law to the President is to federalize the National Guard, 
which is a Presidential decision authorized by statute and to 
invoke the Insurrection Act, which would allow Title 10 
military forces to engage in law enforcement activity.
    So for the portion of the duty that we face, the law is 
clear and well established, and that is in order to overcome 
State opposition manifested through the National Guard, when 
the statutory requirements are met, the President can overcome 
that opposition by federalizing the Guard and invoking the 
Insurrection Act.
    That pertains only to the military portion of the response. 
I don't think anyone at this table is qualified to address the 
larger civilian implications that go beyond the military piece, 
but that is an accurate description of how local opposition 
could lawfully be overcome within the military sphere.
    Mr. Davis. I think both of us understand the constitutional 
implications. But I am kind of a practical guy. I want to come 
down to the basic level all politics is local, and it would be 
very difficult for the President to willfully federalize a 
situation if there is an intact structure in the State just 
because of the perception of avocation of local leadership and 
all of the civil political impacts of that. I guess what I am 
asking is a practical question of have you worked contingencies 
of a workaround for example, and certainly with the adjutant 
general sitting at the table, I know that would not be a 
problem within your States at all. Have you considered this 
contingency of establishing be the kind of relationships to 
execute integrated operations with that State's assets as well 
as your outside assets so you didn't leave that uncovered or 
unnecessarily having them redundant?
    Secretary McHale. Let me preface it and quickly turn to 
General Blum. If we have competent leadership at all levels of 
government, the expectation is there would be a likely JTF 
commander assigned by NORTHCOM and that JTF commander would 
coordinate with the adjutant general of the State so the senior 
active duty 10 officer would have a coordinating relationship 
with the adjutant general of the State.
    If that coordinating relationship went well, we would 
proceed as we did during Hurricane Katrina, with General Honore 
conferring constantly with General Landrino. That was a good 
relationship that worked well. But if it were to deteriorate in 
some future instance, that is when the President would have the 
responsibility to consider the possibility of federalizing the 
National Guard to achieve unity of command.
    What I would like to do is ask General Blum, is talk about 
that coordinating relationship to get a sense of how we are 
working out the dual chain of command that is inherent in 
federalism to make sure we have coordinated military activity.
    Mr. Davis. I appreciate your answer, Mr. Secretary, but 
that is still not answering the practical question of let's 
assume that got the leadership implosion, and let's say you 
don't have the right to replace the patrol leader, what other 
contingencies do you have systemic contingencies to deal with 
that to maintain out-of-uniform level and working with public 
safety?
    General Blum. The first part of your question is a 
political decision. I am not authorized to make those kind of 
decisions, fortunately. So I will have to sidestep that, 
because that is a political decision made at the very highest 
level of our government. It is inappropriate for me to even 
comment on. If I get to what you are asking about, let's say, I 
have a competent leader who is incapacitated or has diminished 
capacity for whatever reason, do I have an ability to replace 
that leadership?
    Yes, we do. We do that through EMAC and we did that. Very 
competent good leaders were soon overwhelmed and fatigued by 
the enormity by the tasks they had to perform the magnitude of 
the operation, the scope of the operation, and frankly, the 
physical exhaustion that they were experiencing in the 
operation.
    And we did flow in command and control headquarters from 
the National Guard from other States to the affected States to 
replace the command and control that was not there because it 
happened to be in Iraq or Afghanistan at the time. We had three 
very competent brigade headquarters that were overseas fighting 
the Global War on Terror, so to make up for that shortfall, we 
brought in a division headquarter out of the midwest and we 
brought in division headquarters also out of the midwest, 
unaffected areas, so that we didn't take leadership out of an 
area that had their own problems. We brought those down and 
they were highly, highly effective in Mississippi, and they 
were highly effective in Louisiana in affecting command and 
control, or expanding the capabilities that were there to be 
large enough to handle the enormity of the situation they had. 
Does that get to what you are talking about?
    Mr. Davis. Not completely, but this perhaps is more 
appropriate in an off-line discussion, since the cameras are 
rolling. I would like, if I could, have the chairman for a 
follow-up to this.
    Do you believe that DHS is sufficiently clarified, and this 
is for the adjutant generals specifically, clarified the rolls 
of the Principal Federal Official, and Principal Federal 
Coordinating Officer. And is it clear to you who will be in 
charge of coordinating the Federal response, and ultimately, I 
guess the final piece of this is if it is not, who do you think 
should be in charge from a Federal level.
    General Burnett. Congressman, with the experience of eight 
hurricanes in the last year, I would tell you there is no 
better coordinating officer than this defense coordinating 
officer. It works well. There is no question that that can be 
stepped up. I know of no need that we had that was unmet to 
strong leadership of officers like Colonel Mark Fields. That 
was a huge storm for us. If it was C-17s or C-5s bringing in 
the equipment we needed, or meals or water, whatever it was, 
that works very, very well. Certainly there is a role for the 
Principal Federal Official to play, and I think we respect 
that. By the end of the day, under Governor Bush's leadership, 
his team going right to the DC0 you can get everything this 
Nation has to offer.
    Leadership is in place. What we need is other things, and 
we found it is certainly available and we spoke every night. If 
I could follow on, sir, and go back, starting out early and it 
is popular to recall these folks. Every night, I call the 
leadership of First Army. I call the leadership of General Blum 
at home, and I called Northern Command. Here is what we are 
looking at. Here is what we are doing and, if you want to 
adjust that calibration, I was open and I would present that to 
Governor Bush, and we did that consistently throughout that 
spectrum.
    I said to General Clark and Admiral Keating, here is what 
we are doing in Florida in this hurricane exercise, so we build 
that trust. They know we are communicating; they know we are 
communicating. But we think the DCO is the answer. There may be 
things beyond it but at what price do we need things that are 
working well now. And I think we have it.
    General Bowen. I understand exactly how it works. I think 
putting the Principal Federal Officer in there the other day, 
and we met him the other day, we know him. He understands what 
our capabilities are. We know that if we can not do it, all we 
have to do is ask for it. No problem at all.
    Mr. Saxon. Thank you. The Chair will recognize Mr. Larsen.
    Mr. Larsen. Gentlemen, thanks for coming to help us out 
today. First question is for General Blum. It is kind of deja 
vu all over again for you and me, because I think I was sitting 
in this exact chair, you were sitting probably right there the 
last time we talked about equipment and people, because you 
mentioned we have 350,000 available National Guard folks. I am 
wondering how many people will be available. How many are 
committed doing something else in Conus or something else but 
so not available of that 350,000.
    The second thing, looking at some of these numbers that you 
have supplied to us where you have 101,000 pieces of equipment 
in different missions around the world, and then the request 
over the next 5 or 6 years for Air National Guard, and Army 
Guard, about $23 billion worth of equipment; and then thinking 
about Major General Bowen's comment needing fuel haulers, 
aircraft and so on, if push comes to shove, what are we doing 
to ensure that our tags, and you and perhaps Northern Command 
aren't chasing the same piece of equipment in this hurricane 
season.
    If you could talk a little bit about that, so how many 
people do we have and what do we do to ensure that we are not 
all chasing the same piece of equipment because of where other 
equipment is.
    And then I have got a separate set of questions for 
Secretary McHale.
    General Blum. I will try to keep it short and to the point. 
I would say about 300,000 citizen soldiers and airmen are 
available in the United States to go anywhere in the United 
States to do whatever is needed to be done, natural disaster 
response, terrorist acts whatever would be required. That is 
the first part of your question.
    The equipment piece we are working feverishly with the Air 
Force and the Army, and I say with them, that is a good thing. 
Because now the Army has accepted the response of national 
disasters, is a very significant mission of the National Guard 
and a mission of the Army, and the Air Force as well. So the 
Army and the Air Force are working with me to ensure that I 
have, even faster than the PALM or the program of record will 
deliver this equipment.
    We are taking extraordinary measures right now to move 
equipment into the hurricane effective State to give them brand 
new trucks, divert them from where they were originally 
intended to go, active units, Guard units, Reserve units and 
move--redirect the distribution of that equipment so that it is 
available in the next few weeks and months for the hurricane 
season.
    I think that is a tremendous step forward and a great 
demonstration of sincere commitment on the part of the Air 
Force and Army to step up and recognize this mission should not 
be laid on the backs of the States. They share in this 
responsibility.
    Are we going to get well from this effort? No. Will we 
improve significantly from it? Absolutely.
    The money that is in the program of record needs to stay in 
there, and if it gets diverted or it gets taxed or used for 
another purpose, then we are not going to be as capable as the 
National Guard as we need to be. So I watch that every day and 
I try not to blink, frankly, because it is very important to 
our Nation, it is very important to our adjutant general that 
equipment and that money gets to where it is supposed to go.
    Mr. Larsen. Is that plan for that $23 billion, as so as 
right now you are coordinating with Air Force and Army to fill 
a potential equipment gap, and looks like it is going to get 
filled. But as that $23 billion gets spent and we purchase new 
equipment, does that come to the National Guard and the 
equipment that you have then reverts back to Army Air Force. Is 
that how----
    General Blum. That is not my intent, sir. I am not aware of 
any intent to do that. That would not make much sense to me, to 
be honest. I mean, that is direly needed, once it is there, it 
needs to be left there and then we need to improve a lot of the 
others out there to face forest fires in a different season, 
and flooding in a different season, and then you can't have the 
equipment chasing the event.
    That is not the way you want to do it. You want the 
equipment in the local area, because when it happens, everybody 
talks about a week's notice. I would love to have a week's 
notice for specificity of where a hurricane is going to land. I 
don't think that is possible. I have talked to experts and they 
spent their life doing this and they really don't have a good 
idea of where it is going until about three days out. Some say 
five days out, but even when that projection is there, you have 
a very wide window of area.
    Secretary McHale. General Blum is correct on that, which is 
why we are going to have to make decisions far enough out from 
landfall, based on imperfect information. Seven days out we are 
going to know there is a storm, but we are not going to know 
within hundreds of miles where it might come ashore. 
Nonetheless, specifically in the case of New Orleans, we are 
going to have to be looking, meaning as a government, State, 
local, Federal, at evacuation plans at a stage where the 
information is going to be imperfect.
    So it is entirely possible that acting in due diligence 
with imperfect information of the type described by General 
Blum, we may have one or more evacuations that turn out to be 
false alarms, but to protect the lives, we may have to do that.
    Mr. Larsen. If I may, Mr. Chairman, for Senator McHale. 
There is one about Com Plan 2501 and covers with the National 
Guard Association (NGA). In your testimony, you said the 2501 
is now in front of the Secretary of Defense (SECDEF), and you 
haven't got approval on that. When do you expect to get SECDEF 
okay, and is there going to be time to apply principles and 
concepts? I know you have been practicing some of things. Is 
there going to be time to practice those, but also communicate 
those concepts to folks so you can put 2501 in place.
    The second on NGA, the Government Accountability Office 
(GAO) points out the first gap in the GAO study was the lack of 
timely damage assessment. I note in your testimony, you met 
with NGA to talk with damage assessment the availability of 
assets to make those kind of assessments. What kind of 
cooperation are you getting from NGA, and what are they telling 
you and what can they expect?
    Secretary McHale. Let me take the second half of the 
question, and then I am going to ask General Rowe to answer the 
first half. The relationship, the approval of Com Plan 2501 
involves the relationship between the combat commander, who 
develops that plan and that relationship flows directly not 
through me, through the Secretary of Defense, I have visibility 
into it, but I think General Rowe can give a better 
perspective. If you look at the GAO report that was written on 
Hurricane Andrew in 1992, you will find in that report an 
observation that the post damage--the post landfall damage 
assessment was slow and inaccurate.
    And if you look at any fair minded assessment of Hurricane 
Katrina, you will see that the post landfall damage assessment 
was slow and inaccurate. If you look at we, in the Department 
of Defense did in anticipation of Hurricane Rita, you will see, 
from having learned from the experience of Andrew and Katrina 
for Hurricane Rita, the combatant commander developed a very 
comprehensive system of DOD capabilities, mostly aerial imagery 
and NGA capabilities to rapidly assess over a wide area the 
amount of damage that had occurred because media reports 
historically have been very inaccurate during those kinds of 
chaotic circumstances.
    So the short answer to the second part of your question is 
for Rita and for all future events, shaped by the combatant 
commander, we will have damage assessment capabilities, mostly 
aerial imagery from NGA and from other lower level aerial 
observational capabilities P3s, C-26s, C-130's, up to and 
including NGA type assets to get that aerial imagery so that 
we, more rapidly and accurately, understand how bad the damage 
is. Let me turn to General Rowe.
    Mr. Larsen. It seems from General Bowen's comments this is 
the kind of commission you need to dump on these guys.
    Secretary McHale. DHS--here is the linkage that has to take 
place. DHS has to get that, because damage is not a DOD 
responsibility, but we have the best collection assets to 
download and forcefeed to DHS so that our civilian leadership 
has a much clearer, much more accurate understanding of how bad 
the damage is. We didn't have that after Andrew. We didn't have 
that after Katrina. We were prepared as a department to provide 
that to DHS after Rita, and we will be similarly prepared for 
all hurricanes in the future. And NGA is a big piece of that.
    General Burnett. If I can respond to that just from 
experience. In Florida, we put mass on the objective. We 
reconned with force. We know a Cat 3 Cat 4 Cat 5 hurricane is 
going to do about these kinds of things, kind of like when a 
baby cries, everybody knows you grab a diaper, you go grab some 
food, you go nurture. Well, we go down range with our people 
and we send reports back. But we know what we are going to see. 
It is, just did it go beyond that, or is this street blocked, 
or this one blocked, so we do use a lot of search and rescue 
National Guard special forces, fish and wildlife team.
    But we send forth knowing what we are going to get, and 
like the Secretary said, certainly there is an overhead piece 
of that we can do it in 24 hours. Can't mobilize overhead 
assets in 24 hours. So you got to be there and we can do it 
with large numbers of National Guards in our State response and 
it works.
    Mr. Saxon. Thank you very much.
    Mr. Gibbons.
    Mr. Gibbons. Thank you very much for your presence up here 
on the Hill. I know the rigorous schedule of constantly being 
dragged to the Hill interferes with your ability to do your 
job, but it helps us better do our job, and we thank you for 
that.
    You know, there is something, Mr. Chairman, that I wanted 
to add to your remarks and apologize for having to be taken 
away to go down to the floor for an amendment, but when you 
talked about the importance of the Guard and its contribution 
to natural disasters, forces overseas, the war on terrorism, I 
don't think you could have made a clearer message as to why we 
need to treat the National Guard as a joint force provider to 
give them the recognition and the status.
    General Blum, as Lieutenant Blum should be a 4-star 
general, not just because we want to make the National Guard a 
co-equal branch of the Air Force or the Navy. That is not it at 
all. But because he needs the authority and the ability to sit 
in those meetings and have a voice that competes as a joint 
force provider. And to me, that is the one thing this committee 
should be looking at, should be doing is giving the National 
Guard a voice. To equal the mission in the world that they play 
and not only the war or terrorism, natural disasters, but the 
whole picture of how they supplant and actually, in many cases, 
support all of our active duty forces as well.
    That being said, General Burnett, I wanted to tell you that 
in 1969, I was a young lieutenant at Egland Air Force base in 
special operations, so I remember Hurricane Camille as well as 
you do. We were there probably together in some fashion.
    But what I wanted to ask about today is, of course, General 
Blum, when we look at the logistics and the transfer and the 
needs are we projecting where we will have the resources and 
the dollars to move those people to move those equipment 
without having to rob Peter to pay Paul at that time, because 
we know it is coming, we see it out there, and oftentimes, 
budgeting gets reprogrammed and shuffled around a little bit. 
Can we in Congress help you do that job better?
    General Blum. Congress has done a magnificent job in 
recognizing the needs of the Guard and addressing them. A 
perfect example is post Katrina you ask--this body asks what we 
needed. We say we needed about $1.3 billion. You rightfully 
said how did you come to that number. We listed every piece of 
equipment that we thought we needed to be better prepared to 
respond to the next hurricane season. You graciously provided 
$9 billion. We have spent it exactly the way we said we would, 
and our capabilities are much better.
    I would like to not comment on your earlier comment, but I 
would like to add a clarification to it.
    We are, in fact, indeed, and have been a joint force 
provider for at least the last 5 years in ways that we have 
never been in the previous 350 years.
    But that joint force is in a Title 32 joint force provider. 
We are not a Title 10 joint force provider. We do that through 
our services and that is our secondary role. I mean, the Guard 
is unique. It is the only DOD force that is a joint force 
provider in Title 32. All of us are joint force providers in 
Title 10, sir.
    Mr. Gibbons. What I was trying to do and trying to get at, 
but more importantly on budget, do we have the budget means 
without having to take away from training, without having to 
take away from equipment purchases down the road in order to 
meet the needs and the expenses, and moving our Guard group in 
an emergency. I want to make sure that we are giving you the 
right budgetary latitude within which to do that, without 
having you have to come waltzing back up here and beg us to 
back bills where you need to take that money from.
    We know your obligations. We know your commitment. We know 
what you have got to do in the future. We want to be able to 
enable you to do that without worrying about stealing it from 
training, taking it or reprogramming it to purchase equipment 
and such. That is all I was trying to get at.
    General Blum. You are right. We have developed an art and 
science over the years as to how we rob our own Peter to pay 
our own Paul. And if we were adequately resourced, we would 
have to do less of that.
    Mr. Gibbons. My time is running out very quickly.
    Secretary McHale, welcome back again. Can you give me a 
very quick rundown of what the chain of command would be, or 
what is the command scenario when we go into one of these 
situations? Where is the responsibility as we go through this 
chain of command membership?
    Secretary McHale. With the passage of the Homeland Security 
Act in 2002, and the publication of national response plan at a 
Federal level, this is basically the way it works out. The 
cabinet level secretary, who has the overall coordinating 
responsibility for Federal assets, is the Secretary of the 
Department of Homeland Security. Secretary Chertoff is in 
charge of coordinating the entire Federal response. The 
official he would name, normally in the area that has been hit 
is the Principal Federal Official, the PFO. And in the case of 
the hurricane season coming up, Gil Jamison is the 
predesignated PFO for Louisiana.
    We have other PFOs predesignated throughout the rest of the 
gulf coast area. The PFO works with the Federal coordinating 
officer out of FEMA. His partner is the defense coordinating 
officer. On the military side, we support Secretary Chertoff to 
achieve his civilian-led mission. The military chain of command 
goes from the President of the United States to the Secretary 
of Defense to the affected combat commander, Admiral Keating. 
So Secretary Chertoff is in charge of Federal coordination. We 
in DOD get mission assignments or requests from assignments 
from FEMA working for Secretary Chertoff. We retain command and 
control over our own forces, but we roll in under DHS to assist 
them in the execution of their mission.
    Mr. Gibbons. I had one small question, and I apologize for 
taking up extra time in this. But I guess maybe if I could talk 
to the adjutant generals that we have here, to maybe respond as 
to are we getting back the resources that we truly need? Is 
Congress doing an adequate job of preparing you monetarily to 
enable to handle all of these disasters. But most importantly, 
in your mind, do you think we have a strategy like we do in DOD 
for a 2 war major theater war strategy do we have a 2 major 
disaster, for example, if we had Mount Rainier explode in south 
of Seattle, and a hurricane hit New York City, magnitude force 
3 or greater, can we respond National Guard-wise to that sort 
of a magnitude of command and challenge for us?
    General Bowen. Well, you have gone a little above my level, 
but I will tell you that I feel very confident. When you say do 
I got enough--when I sent them to Louisiana, and I send them to 
Mississippi, and I am fighting a war in Afghanistan and Iraq, 
and he is real concerned that I have enough, and I show him the 
numbers that I have got, I am very confident in what we do.
    By the same token we had the numbers up here a while ago 
that the way we responded to Katrina and Rita it was 50, 
60,000. We still had soldiers left over. Yet, the more you 
deploy, the more you are going to run out of equipment because 
in Alabama, we have to cross level because we are not 100 
percent fully funded, but it has never been, and it is probably 
not going to be, but I have a lot of confidence.
    General Burnett. Congressman Gibbons, responding to the 
equipment issue specifically, yes. Yes, we do have the right 
equipment to do the job, and we can do the job you talk about, 
and it takes a lot of moving around. The National Guard has 
gotten pretty good about that, certainly when you look at some 
of the cuts that came our way recently, I think to Congress, 
that didn't occur. Before 9/11, we had about 74 percent of our 
authorized equipment in the National Guard. Now we are 
somewhere between 27 and 34 percent. It depends on the State. 
In Florida, we have an adequate amount, thanks to General Blum. 
He makes sure that hurricane-prone States are kind of preset, 
ready to go. We thank Congress and Bill Young in the 
Appropriations Committee for the huge support of National Guard 
reset of equipment, and we think we are about where we can be 
considering the war in Iraq and Afghanistan, we think we are 
okay.
    Mr. Gibbons. I want to make sure as we focus on Hurricane 
Katrina that we also look at natural disasters in other parts 
of the country as well.
    General Burnett. May I make one statement to Congressman 
Taylor?
    Mr. Saxon. We are going to go to him for questions.
    Mr. Taylor. Let him get the first swing.
    Mr. Saxon. Go ahead.
    General Burnett. I am a lifelong resident of Florida. 
However, I am a graduate of Southern Mississippi. I want to 
tell you it is an honor to deploy with over 4,000 soldiers 
Florida State employees to be based in St. Louis after Katrina, 
and reestablish local operations with the mayor, the police 
chief and certainly the superintendent of schools. The people 
of Southern Mississippi are great, and I know they appreciate 
your leadership.
    The Chairman. The gentleman from Mississippi, who knows 
more about this subject than anybody else on this panel. Mr. 
Taylor.
    Mr. Taylor. Thank you. Being a resident of St. Louis, when 
the Floridians showed up, I think on Thursday night, they were 
very welcome and greatly appreciated.
    Mr. Chairman, I don't want to overdramatize this, but 
really, in the immediate aftermath of Katrina, as I looked 
around having been on this committee for a long time, it really 
did hit me when there is an attack on the United States, not 
if, this is what it is going to look like. There is not going 
to be any food, any fuel, communications are going to be shot. 
There is not going to be a place to put the dead. The hospitals 
are going to be out. You know, thinking whether it is in the 
EMP, electromagnetic pulse, whether it is a dirty bomb, whether 
it is someone blowing up the levees in New Orleans, that is 
what it is going to look like.
    I think it is great that we have these gentlemen here 
because it is great to talk about what they did right and the 
National Guard did a heck of a lot of things right, but we also 
need to address some of the things we could have done better. I 
would ask Congressman Smith to mention it and Paul, I know you 
would be a very smart guy, but I can't emphasize this enough, 
one of the things that was lacking was a water-borne strategy. 
We were bringing fuel from over 200 miles away from areas that 
had no fuel. You are going down roads where you know the four-
lane highways are down to one lane where you are lucky because 
the trees have fallen and hurricanes are going to hit a 
waterfront community.
    Floods are going to a hit waterfront communities. The 
biggest cities in America are all waterfront. The idea that we 
did not have a strategy to get fuel there by the barge load is 
a glaring omission that has to be fixed. When you think of the 
problems of getting people out of New Orleans, a water-borne 
strategy to put them on off shore fly boats, of which there are 
hundreds in Louisiana, or put them on deck barges in which 
there are hundreds in Louisiana, and get them out of the area 
and get some up to Baton Rouge, get them some place where it is 
easier to feed them and house them, and take care of them 
again, it is lacking, but not just with this scenario, but for 
any scenario of a disaster, either man made or natural, when 
you consider how many of our big cities are on the water.
    It has got to be a piece of it. I distinctly remember at 
Stennis Airport that I had to describe to General Blum in 
Hancock County out of the middle of nowhere bringing in 
planeloads of ice. Welcome. Wonderful stuff. That is the most 
expensive way to get a fairly heavy, fairly inexpensive product 
to some place. And so we do have better strategies, 
particularly when you keep in mind a fuel barge has its own 
generator, it has its own pumping capacity. You don't have to 
deal with gravity. You can be loading trucks there. Can be 
loading individual vehicles there.
    So again, I belabor this point because I mentioned this to 
Secretary Chertoff. I don't think he gets it. I mentioned this 
to others within the Department of Homeland Security. They 
don't seem to get it. You are the kind of guys who gets things. 
And so if they won't fix it, I am asking you to fix this, 
because remember, there is always going to be a good side and 
bad side of every hurricane.
    Generally, if you are on the west side of the hurricane you 
are going to be okay, because you are catching the breezes that 
are upcoming from onshore. So if a hurricane hits Pensacola, 
New Orleans will probably do okay. If a hurricane hits New 
Orleans, Houston will probably be okay, because it lies to the 
west. So you ought to have a strategy.
    And the second thing is, you have to have contacts in 
place. A couple years back, Secretary Rumsfeld came before the 
committee. At that time, our local engineering unit was just 
getting back from Iraq. They had been instructed to leave every 
piece of equipment in Iraq. By the time the storm hits, they 
had 60 percent of their equipment and they did a magnificent 
job. I can't say enough good things about the 890. They cleared 
the streets so when the police showed up from Florida they 
could actually get down those streets. But, remember, they had 
only 60 percent of their equipment. We need to do better than 
that.
    And the second thing is, after a disaster, the piece that 
hit me is I distinctly remember the Secretary saying we will 
just go out and buy it on the market. When a disaster hits, the 
demand on that market has tripled, quadrupled, exploded over 
night. You have every contractor in America trying to buy the 
same generator, trying to buy the same piece of heavy 
equipment. So we need contracts in place to guarantee that 
equipment will be there at a fixed price, fuel in particular.
    I strongly suspect that some of the jobbers in south 
Mississippi sat on their inventories. Why did they sit on their 
inventories? Because when the gulf went down, the price of 
gasoline went up overnight; and these guys knew they are making 
tens of thousands of dollars a day every day they sat back and 
didn't sell their fuel.
    You have to have a contract in place that says this is what 
you are going to be paid; you are going to show up and this is 
going to be the market price on that day. You can't count on 
the market because any disaster to the homeland you are going 
to see the price of gasoline jump from 50 cents to a dollar 
overnight, and you have to have someone who is going to be a 
willing seller on that day.
    Last, it is great to hear about the communications. But 
again going back to the one satellite phone that was operating 
out of Hancock County on that Tuesday night, the first call, if 
I am not mistaken, was to General Blum; second call to the 
Chief of Naval Operations (CNO).
    And what was really interesting on one hand and really 
scary on the other is I said, guys, this is really, really 
serious. I really, really need your help. I am not 
exaggerating. Our hospitals are out. We have no fuel. We are 
looting the food stores to feed people, et cetera, et cetera. 
Without going into the whole scenario, both of them, the first 
reply back to me is, tell me about your bases; where can I put 
people.
    Now what is scary for me sitting down there is that the CNO 
doesn't know what Homeport Pascagoula looked like, that you 
don't have a good assessment of what Kessler Air Force Base and 
its huge runways look like, that you don't have a good 
assessment of what Seabee Base looks like.
    I am sitting in a county that is more or less isolated 
because all the bridges are destroyed and the ones that are 
still there are under water, and I have to tell them what these 
things look like?
    So, again, not just what the Guard and Reserve do but 
within the regular forces. And, again, an attack on homeland is 
going to look just like this. We have to have a better job of 
communicating between our bases and the Pentagon so that we 
know our starting point for where you can launch out of to help 
other people. And I cannot emphasize that enough.
    To this day, I have never had a good answer from either the 
Air Force or the Navy as to when they first got in touch with 
the Pentagon to let them know their status and, you know, 
whether they need to spend their time taking care of themselves 
or whether they were prepared to go out in the community and 
help others. And your job, that has got to be something that 
gets fixed.
    The other thing I can't emphasize enough, that hurricane 
happened in August, early September. It is warm. No one is 
going to die of cold. What if one of these attacks happens 
during the dead of winter? No generators. No water. No food. 
One of things that hit when I am calling around trying to get 
tents for shelter for people, all the tents are in Iraq. They 
are in Afghanistan.
    So things that we on this committee can consider, ``tail,'' 
because we have been trying to put more money into ``tooth'' 
for fighting--when the attack occurs on the homeland you are 
going to need a lot more tail, you are going to need a lot more 
generators, you are going to need a lot more tents, you are 
going to need a better way of getting water to people than 
buying it one bottle at a time. That is great in the short 
term, but it is also the most expensive way we get water to 
people. We have to have a strategy of getting the wells up and 
running again and maybe even digging wells if the need occurs.
    MREs are wonderful. You can drop them from a helicopter to 
feed people. It is also a very expensive way to feed masses of 
people.
    Again, if it is an attack on Los Angeles or New York, we 
are going need a more efficient way to feed a lot of people 
under bad circumstances.
    So just my observations. I have offered at least one 
solution when it came to the fuel that we need to be taking 
advantage of. And, quite frankly, Paul, there are copycat 
crimes and there are copycat attacks. I think any future foe of 
the United States is going to blow the levee in New Orleans. 
They saw how easy it was. If I was an enemy of the United 
States, I would sure as heck do it.
    We also know you can simulate an electromagnetic pulse. 
There was a barge out on the Chesapeake 10, 15 years ago. It 
was called the Empress. Its purpose was to simulate an EMP 
attack on a ship. So we know we can do that short of a nuclear 
device. So if we could do it 20 years ago, you have to figure 
any potential foe can do it now. So you have to have backup 
communications that are somehow sealed against that, that you 
break out after the attack and get the word out and get the 
things done that can be done.
    Thank you, Mr. Chairman.
    Mr. Saxton. Listen, thank you, Mr. Taylor.
    This was a very good hearing. We want to thank each of you 
for participating with us here today----
    Mr. Taylor. One last thing, if I may. I will keep it short.
    Mr. Saxton. Yes, sir.
    Mr. Taylor. General Blum was right in pointing out we lost 
a National Guardsman that night. And this is something I hope 
we can address administratively; and, if not, we need to 
address it legislatively. He was a veteran of the battle of 
Fallujah. A Marine came home, joined his local Guard unit and 
tragically died the night of the storm trying to rescue what 
turned out to be his own grandparents. Had he died in Fallujah, 
his widow and children would have gotten twice the benefit.
    Now, because of the horrible circumstances--General Blum 
was great. General Cody was great. Working it from both ends we 
were able to see to it that he got the same benefit as if he 
had died in Iraq.
    But I would hope that under that narrow window of being in 
a Presidentially declared natural disaster that those families 
would be treated the same as if they had been in Iraq or 
Afghanistan.
    It just makes no sense at all. If he had died in Fallujah, 
his family would have gotten, I believe, $400,000. But because 
he died in Poplarville, it would have been only $200,000. 
Again, it was corrected. And I am greatly--and I know the 
family is extremely grateful for doing that. But that ought to 
be a matter of policy for us, rather than an exception.
    Secretary McHale. Did he die in State active duty status 
before title 32 was invoked?
    General Blum. No, sir. He was covered in title 32.
    Secretary McHale. Because of the retroactive nature of it?
    General Blum. Because the Secretary of Defense authorized 
title 32 back to the 29th of August. He died on the evening of 
the 29th.
    Secretary McHale. But your concern is what if in some 
future event the approval from the Secretary was not 
retroactive to an early date immediately after or even before 
the occurrence of the event.
    Mr. Taylor. And let's say--you know, let's say some of the 
rumors that turned out not to be true about New Orleans really 
were true? What if there really had been shooting at Cornville? 
Whether you are 20 miles from home or 2,000 miles from home----
    Secretary McHale. Congressman, we will take it back there 
for review by the Office of General Counsel (OGC). My initial 
impression is if we have a situation where a soldier is already 
in title 32, that in terms of death benefits and so on he is 
well cared for. The concern would be, if we didn't have a 
retroactive declaration--which we did have for Katrina--where 
there might be a gap between the time of the event and the 
declaration of title 32, where in State active duty status, the 
benefit wouldn't be nearly what it is. We heard some discussion 
of that earlier in title 32.
    Mr. Taylor. In all honesty, I attended the funeral. If the 
officer assigned by the National Guard to take care of the 
family had not brought it to my attention, it might not have 
been fixed.
    So, again, for the next time, it ought to be something that 
automatically gets fixed.
    Secretary McHale. Yes, sir. We understand.
    Mr. Saxton. Once again, thank you for being with us today. 
We appreciate your being here, and we appreciate very much the 
job that you are all doing. And, hopefully, when we have our 
next event, we will be better prepared than we were last time.
    Thank you very much.
    [The prepared statement of General Landreneau can be found 
in the Appendix on page 97.]
    [The prepared statement of Ms. Pickup can be found in the 
Appendix on page 108.]
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]















      
=======================================================================

                            A P P E N D I X

                              May 25, 2006

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 25, 2006

=======================================================================

      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
